<html>
<title> - HOMELAND SECURITY: ASSESSING THE NEEDS OF LOCAL LAW ENFORCEMENT</title>
<body><pre>[Senate Hearing 107-889]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 107-889
 
    HOMELAND SECURITY: ASSESSING THE NEEDS OF LOCAL LAW ENFORCEMENT

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON CRIME AND DRUGS

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 21, 2002

                               __________

                          Serial No. J-107-70

                               __________

         Printed for the use of the Committee on the Judiciary








                       U. S. GOVERNMENT PRINTING OFFICE
85-885                         WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001






                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
EDWARD M. KENNEDY, Massachusetts     ORRIN G. HATCH, Utah
JOSEPH R. BIDEN, Jr., Delaware       STROM THURMOND, South Carolina
HERBERT KOHL, Wisconsin              CHARLES E. GRASSLEY, Iowa
DIANNE FEINSTEIN, California         ARLEN SPECTER, Pennsylvania
RUSSELL D. FEINGOLD, Wisconsin       JON KYL, Arizona
CHARLES E. SCHUMER, New York         MIKE DeWINE, Ohio
RICHARD J. DURBIN, Illinois          JEFF SESSIONS, Alabama
MARIA CANTWELL, Washington           SAM BROWNBACK, Kansas
JOHN EDWARDS, North Carolina         MITCH McCONNELL, Kentucky
       Bruce A. Cohen, Majority Chief Counsel and Staff Director
                  Sharon Prost, Minority Chief Counsel
                Makan Delrahim, Minority Staff Director
                                 ------                                




                    Subcommittee on Crime and Drugs

                JOSEPH R. BIDEN, Jr., Delaware, Chairman
PATRICK J. LEAHY, Vermont            CHARLES E. GRASSLEY, Iowa
DIANNE FEINSTEIN, California         ORRIN G. HATCH, Utah
HERBERT KOHL, Wisconsin              MIKE DeWINE, Ohio
RICHARD J. DURBIN, Illinois          JEFF SESSIONS, Alabama
MARIA CANTWELL, Washington           SAM BROWNBACK, Kansas
JOHN EDWARDS, North Carolina         MITCH McCONNELL, Kentucky
                 George Ellard, Majority Chief Counsel
                   Rita Lari, Minority Chief Counsel





                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Biden, Hon. Joseph R., Jr., a U.S. Senator from the State of 
  Delaware.......................................................     1
Cantwell, Hon. Maria, a U.S. Senator from the State of Washington    51
Grassley, Hon. Charles E., a U.S. Senator from the State of Iowa.    40
Kohl, Hon. Herb, a U.S. Senator from the State of Wisconsin......    41

                               WITNESSES

Ferrell, Tommy, First Vice President, National Sheriffs' 
  Association, Natchez, Mississippi..............................    26
Hays, Hon. Patrick Henry, Mayor, Little Rock, Arkansas...........     8
Hood, Hon. Glenda E., Mayor, Orlando, Florida....................    13
Johnson, William J., Executive Director, National Association of 
  Police Organizations, Washington, D.C..........................    22
Muhlhausen, David B., Policy Analyst, Center for Data Analysis, 
  Heritage Foundation, Washington, D.C...........................    32
Szczerba, Michael J., Chief of Police, Wilmington Police 
  Department, Wilmington, Delaware...............................    19

                       SUBMISSIONS FOR THE RECORD

Federal Bureau of Investigation, Robert J. Chiaradio, Executive 
  Assistant Director, Washington, D.C............................    53
Police Executive Research Forum, Washington, D.C.................    57


    HOMELAND SECURITY: ASSESSING THE NEEDS OF LOCAL LAW ENFORCEMENT

                              ----------                              


                        THURSDAY, MARCH 21, 2002

                                       U.S. Senate,
                           Subcommittee on Crime and Drugs,
                                    Committee on the Judiciary,    
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:07 p.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Joseph R. 
Biden, Jr., (chairman of the subcommittee) presiding.

STATEMENT OF HON. JOSEPH R. BIDEN, JR., A U.S. SENATOR FROM THE 
                       STATE OF DELAWARE

    Chairman Biden. The subcommittee will come to order, 
please. I welcome all our witnesses today and will explain what 
all of them know, because it is not the first time some have 
been here.
    As the subcommittee opens this hearing, our Subcommittee on 
Crime and Drugs, there is a lot unfortunately going on today, 
so some of my colleagues will be in and out.
    Mayor Hood, of Orlando, is going to be here. She is 
necessarily delayed for a few minutes, and I have sought and 
gained the permission through her staff to be able to begin in 
her absence. She was going to be our lead-off witness.
    Senator Grassley will be here. Senator Grassley has taken 
an inordinately strong interest in the subject before us. And 
it is funny, but the more things change, the more they remain 
the same. Twenty-eight years ago, I started off as chairman of 
this subcommittee and now I am chairman of this subcommittee 
again. So it just goes to show that I think it is vitally 
important, the subject we are going to be dealing with today.
    I have an opening statement, and hopefully Senator Grassley 
may be here by then and he will make an opening statement. Then 
we will turn to our witnesses and I will announce the order 
after I introduce each of you. Again, thank you all for being 
here.
    I called this hearing this afternoon because I wanted to 
hear from the mayors and the men and women in local law 
enforcement, as well as some scholars who have very decided 
views on the President's proposed budget for fiscal year 2003. 
First, let me point out a few things.
    Over the past 8 years, spending on local law enforcement 
has funded close to an additional 114,000 new officers on our 
streets. Now, let me be precise, lest someone immediately 
corrects me. There are probably somewhat in excess--I don't 
know the exact numbers on the chart, but we have roughly 83,000 
new shields; that is, we are hiring 83,000 new police officers 
who have a shield.
    The remainder of that comes from what we call the COPS MORE 
program, allowing mayors and others to go out and hire other 
people to allow a shield, a badge, a sworn police officer to be 
out on the street. The way it has been calculated by the COPS 
Office and by the last two administrations, roughly 114,000 
more officers are on the street and involved in community 
policing than were at the start of this whole process.
    Over the same period, as you can see from the graph, crime 
has dropped 28 percent overall. Now, again, I know people say 
because I drafted the COPS legislation and what was originally 
called the Biden crime bill--actually, it was originally the 
Biden-Hatch crime bill, until it got to the House of 
Representatives, and then all of a sudden my friends on this 
side of the aisle, the Republicans, didn't like it anymore and 
it became the Biden crime bill, although we did get seven 
Republicans to vote for it back in 1994.
    Then President Clinton thought, and I agreed with him, that 
it should be the Clinton crime bill. Then the Democrats lost 
the election in 1994 and he started calling it the Biden crime 
bill again, and then when he found out how popular it was it 
became the Clinton crime bill. I think Chief Szczerba can tell 
you the only place where it has always been called the Biden 
crime bill is Delaware.
    But it doesn't matter whose crime bill it is. The reason I 
mention it is this: I do have a keen interest, in that I, along 
with police officers, beginning in 1990 wrote this bill. But I 
want to say up front up here I do not claim that it is totally 
responsible for that reduction in crime. I don't believe we 
could have seen the reduction in crime we have seen were it not 
for the crime bill, but I do not suggest that is the only 
reason why crime came down.
    So I don't want to get us into an internecine debate about 
whether or not COPS is totally responsible for all the decrease 
in crime, but there are two things that are clear. One, there 
have been authorized 114,000 more police officers to walk the 
street than were walking the street in 1993 locally. Second, 
crime has dropped 28 percent.
    The drop in the rates of victimization, or what most people 
think of as violent crime or crimes against individuals, has 
been even more dramatic. From 1994, the year of the passage of 
the crime bill, to the year 2000, the rate of victimization of 
violent crime--that is, rape, robbery, assault, and homicide--
has dropped a total of 46 percent.
    In 1994, if I had said to anybody when we passed that crime 
bill when I was arguing for its passage on the floor--if I had 
said if you vote for this crime bill, crime is going to drop by 
overall 28 percent and violent crime by 46 percent, I would 
have thought I was certifiable, and I am sure Charlton Heston 
would have had something to say about it. He is the guy who 
called this the welfare bill for social workers.
    The truth of the matter is it has been astounding, which I 
would note parenthetically goes to show you what you can do 
when you empower people to make their own decisions and let 
local governments and the people who know what they are doing 
actually apply for this money and actually decide how they want 
to use it.
    In 1994, we made a decision that the Federal Government 
ought to be in the business of encouraging police departments 
to act and to move into the community policing business. We 
decided then that we ought to help police departments get their 
officers out from behind their desks and out of their cars and 
onto the streets.
    The crime bill kind of reminds me of Social Security. The 
overhead is incredibly low, the success is very high, and we 
take it for granted. So what is the big deal? I want to remind 
everybody that when we decided to provide--and only one part of 
the crime was COPS; there were three parts. One was prisons, 
out of a $30 billion bill, and the other part was prevention 
and treatment, prevention primarily.
    What we intended to do was to quite frankly figure out, Mr. 
Mayor, how we could leverage you all into doing what was 
difficult to do. Back then, Chief Szczerba was on patrol, 
probably, but the truth of the matter is cops didn't want to be 
involved in community policing. The reason they didn't is it is 
a heck of a lot harder. It takes more manpower, it takes more 
resources, it is more difficult.
    So remember the deal here. The deal was in the original 
COPS bill that in order to get any money to hire a new shield--
if you had a department of 100 people, to get one federally 
funded cop, you had to put all 101 on the street. You had to 
commit all 101 to community policing. You couldn't get one if 
your department didn't move to community policing. Number two, 
if you had 100 cops that you hired then and your end strength 
was 100, you couldn't fire one or let one go and add a 
federally-funded cop. You would get no money.
    I got here in 1972 as a 29-year-old kid. I was elected to 
the United States Senate, and I had been a local official and I 
used to go through all those hearings in the country council 
when the county executive would say or the president of the 
counsel would say we are going to do such-and-such. And I would 
say, well, how much would that cost? And they would say it is 
not going to cost anything; that is Federal money. I know local 
officials say they don't say that, but sometimes they do. That 
is Federal money.
    I remember we had a program called LEAA, the Law 
Enforcement Assistance Administration. The first thing I did 
got me in trouble. The chairman of the subcommittee I now am 
chairing was a fellow named McClellan, from Arkansas, one of 
the most powerful, toughest guys in the Senate and a fellow 
Democrat. He was the author of the LEAA program and the first 
major move I made was to eliminate the LEAA program, and oh, my 
Lord, did I hear about that.
    But the reason I did it was in the city of Wilmington, as 
Chief Szczerba may remember, the city was, for example, laying 
off policemen and laying off fireman and hiring them back with 
Federal money. The end result was not one additional cop and 
not one additional fireman at the end of the day. County 
officials would say, look, we didn't raise your taxes, but we 
kept the end strength of the police department up.
    So the point to remember here is in the program that has 
functioned up to now, the one being eliminated, you had to keep 
the end strength of your department up. If you are authorized 
at 100, you had better have 100. If you go down to 90, you 
don't get any Federal money. If you are 5,000 and you go down 
to 4,999, you don't get any Federal money. That was, if you 
will, the stick that went along with the carrot, and you all 
did incredibly well.
    Today, over 7 years after passage of the crime bill, the 
COPS program has awarded $7.4 billion over the period to 
authorize 113,900 new officers, 83,000 of whom are on the 
streets today. The reason I say on the streets today is some 
are still being trained. The departments got the money; the 
cities, the counties, the States and the towns got the money 
and their officer that they hired is literally going through 
the police academy now. They are not all on the street yet.
    Now, 86 percent of all law enforcement agencies in the 
United States of America, every single police department, from 
a 2-person police department in a small town to a city with 
many thousands of police as New York has--86 percent of all the 
police departments in America are engaged in what we call 
community policing. The number of community police officers 
increased by 4,055 from 1997 to 1999 alone. Last December, this 
subcommittee held a hearing to highlight a new study indicating 
that the COPS grants had indeed reduced crime. These graphs 
make the point.
    So where do we go from here? The administration has put 
forward its vision, a big increase for first responders, 
increases which are needed and quite frankly which I support. I 
introduced a bill 18 months ago, before 9/11, calling for $1 
billion being made available to firefighters for training, 
local firefighters, for training and support.
    I have concerns, however, about whether the panel assembled 
here will actually see any of the money. Now, two of the 
panelists are not going to see any money. If they did, they 
would be put in jail because they are from think tanks, but the 
truth of the matter is I am referring to the mayors and the 
local officials.
    I am worried that FEMA, which is a fine, fine agency, may 
not be the right agency to fund these homeland security needs. 
But at the same time the administration boasts spending much 
more money for homeland defense--and they should; it is a 
significant increase--they have made huge cuts in local law 
enforcement programs. They cut two areas that I want to 
highlight this afternoon.
    Overall, the administration has slashed funds to the men 
and women of law enforcement by about 36 percent from last 
year. First, they want to end the COPS program totally. No 
dollars are included for any new hiring, no dollars are 
included for school resource officers, and the COPS technology 
program is cut by two-thirds.
    Now, for those in the audience who don't know what the COPS 
technology program is, that is allowing police officers to 
have, for example, laptops in their cars. One of the things 
that the chiefs and NAPO and FOP and others have taught me over 
the years is when a cop has to go back after making an arrest, 
minor or major, to the station house to bang out the report, it 
takes time, it takes effort. It is clerical, it is necessary, 
it is important, but no one is on the street.
    If that police officer can pull over to the side of the 
road and take out a laptop computer and bang in what he or she 
needs to bang in for that report, the cop is still on the 
street, still available on call, and it takes a lot less time. 
So those are the kinds of things we have used these technology 
programs for, and they cut that by two-thirds.
    Enactment of this budget would mean that we cannot put an 
additional 4,500 new officers on the streets of America next 
year. We could not put more than 1,600 more resource officers 
into schools around the country.
    Now, I want to tell you, in my State--and I don't know 
about Arkansas; I suspect it is the same, Mr. Mayor--these 
school resource officers have been a phenomenal hit, like 
everything else that COPS has done. They have had a synergistic 
impact on things. It wasn't only that they were in a school, in 
uniform, at a particular high school or school to keep the 
peace. What they found is they built relationships with 
individual students and they built relationships with the 
community.
    Now, the kid who wouldn't trust anybody to go up and say, 
you know, Johnny brought a gun to school, or I heard Billy and 
Molly talking about how they are going to take out the 
cafeteria, or by the way I think there is a drug deal going 
down in the gym, they now know there is someone they can trust. 
They have actually built relationships.
    I think you are going to see--we have not done them yet--
serious studies done showing that where there is a police 
resource officer in a public school, you have seen that it has 
an incredible impact not only in increasing the safety in the 
school, but also impacting upon the kinds of transgressions 
that occur within those schools. Eliminating a program like 
this which has been critically important to the crime drop, I 
think, would be penny-wise and pound-foolish. Frankly, I agree 
with the Attorney General, who testified not too long ago, when 
he said that the COPS program has been a miraculous success.
    Madam Mayor, welcome. It is great to have you. We have a 
seat right up front for you. We wouldn't dare start without 
you. All these guys said they were not going to go until you 
came. Welcome. I appreciate your making the effort.
    The second point I want to make is that the administration 
merges a time-honored and tested program, the so-called Byrne 
grants, with the Local Law Enforcement Block Grant program, one 
that was quite frankly more the brain child of my Republican 
colleagues which I supported that worked very, very well.
    Merging these two things sounds okay until you learn that 
when you merge them, you end up with 20 percent fewer funds 
than you had when they were separate. It reminds me of that old 
game on the boardwalk where the guy has three shells and one 
pea and he moves them all around. Well, the difference in this 
game is there is no pea under the shell. I mean, you combine 
the two and you get 20 percent less money in the name of 
efficiency, and that is represented on the graph we have up 
here now.
    That would mean fewer crime prevention programs, fewer drug 
courts, which I know in Florida have been an incredible 
success--quite frankly, we modeled the national program after 
Florida--fewer jail cells, and fewer treatment programs in each 
of your localities. Mayors and police chiefs around the country 
are concerned about these proposals, based on the inquiries I 
have received, and they are facing budget freezes at the same 
time.
    By the way, let me make it clear I don't have a single 
doubt that the President of the United States, the Attorney 
General and the entire administration are as opposed to crime 
and are as dedicated to eliminating crime as any administration 
in the history of the United States of America. I don't have 
any doubt about that. I don't have any doubt about them being 
tough on crime.
    What I am arguing with is their tactics. What I am arguing 
with is their strategy on how to deal with crime, and they are 
radically changing the strategy here, the strategy that has 
worked pretty well for the last eight years.
    So at the very time we are changing this strategy, three 
other phenomena are occurring. Every governor in the country is 
in some kind of trouble now economically, not because they are 
not good governors. They are fine governors, but the national 
economy has taken a real hit. 9/11 has put a real hit on the 
economy, and other things I won't mention because we may 
disagree on why. But the bottom line is, although there are 
some recovery signs that we are coming out of this recession, 
State budgets are being significantly trimmed. My own State is 
a case in point. City budgets and city revenues are down. 
Business is down, business revenues are down, and cities have 
much more difficulty finding tax bases and resources than even 
States do.
    The second factor that has occurred at the same time we are 
making these kinds of cuts is that the FBI, which is 
overwhelmed--if they haven't already come to you, Chief 
Szczerba or Mayor Hood, or others, they are going to be coming 
to you saying, guess what, we can't do all we did in your city 
before; bank robberies aren't going to be on our watch anymore; 
interstate car thefts are going to have to be a local problem.
    Now, depending on the jurisdiction, the FBI co-
jurisdiction--and we have been happy to let them exercise it--
that jurisdiction has ranged from representing anywhere from 5 
to 20 percent of the law enforcement needs in some communities. 
The FBI is not going to be doing that anymore.
    The last thing--and I need not tell a mayor the size of the 
city of Orlando, but every time we necessarily go on alert as a 
Nation, if she doesn't keep her cops' overtime, if she doesn't 
make sure everybody is standing ready in the airport at 
Orlando, which is as big as my State just about--I mean, think 
about this. Think about the additional strain on the budgets of 
the mayors, the governors, and the county executives when we go 
to that red color; we didn't have it before, but when we go to 
high alert that there may be an attack. That has been an 
incredible strain on your budgets.
    So all of this is being telescoped into one moment here and 
my concern is not only are we not going to fund more cops, but 
I think you are going to have great difficulty in the cities 
and States maintaining the number of cops you now have over the 
next couple of years. I hope I am wrong about that, I hope I am 
wrong.
    The Conference of Mayors and the League of Cities, made up 
of local elected officials from both parties, contacted me last 
month to voice their concerns. That is why I scheduled this 
hearing today so the Senate could hear from them directly. So 
let's have a discussion today about programs that are important 
to the mayors and the chiefs.
    How has the COPS program been helpful to you, if it has? 
How does it fit into your new homeland security mission? What 
will its elimination mean for public safety in the future? How 
have the Byrne grants and local law enforcement block grants 
been used? Have they been effective? Should they be merged, 
should they change? Most importantly, what do you need from us 
so that you can keep the crime rates down and meet your new 
homeland security responsibilities at the same time?
    As I am sure some of the panel are tired of hearing me say, 
crime is like cutting grass; it is like cutting grass. I can 
cut my grass the first good growth it gets and my lawn will 
look perfect. If I don't cut it for another three weeks, it is 
going to look like hell. The grass grows.
    The idea that we can keep crime rates down as we have and 
keep them at these lower levels or reduce them further by 
spending less money, having fewer cops, having less input, I 
would respectfully suggest to you is like you cutting your lawn 
the first day of summer and putting your lawn mower away for 
the rest of the summer. The weeds will grow back and you are 
going to have a forest on your front lawn. That is what is 
going to happen, in my view, if we do not adequately fund law 
enforcement.
    With that, let me suggest that we move to our witness list. 
We have a very distinguished panel with us this afternoon. 
First, we will hear from the Mayor of North Little Rock, 
Arkansas, Patrick Henry Hays. He has seen the whites of their 
eyes and he has arrested them. Mayor Hays is here on behalf of 
the U.S. Conference of Mayors. He practiced law in North Little 
Rock from 1973 to 1988, when he was elected to his first four-
year term as mayor. Mayor Hays is now serving his fourth term. 
As my mother Jean Finnegan Biden would say, no purgatory for 
him, straight to heaven. Four terms as mayor is beyond my 
capacity.
    Next, we will hear from the past president of the National 
League of Cities, Mayor Glenda Hood, of Orlando, Florida. Mayor 
Hood has been a leader among the mayors and she has served as 
mayor since 1992. Before that, she was a member of the Orlando 
City Council and was president of her own public relations 
firm. Mayor Hood is an Orlando native and a fourth-generation 
Floridian, which means that she is probably Seminole. I didn't 
know anybody was around for four generations. It is good to see 
you again, Mayor Hood, and we truly welcome you here.
    Next, we will hear from Chief Michael Szczerba, of the 
Wilmington Police Department. Chief Szczerba has served in the 
Patrol Division, the Drug and Organized Crime Divisions, the 
Community Service Division, and now as chief of our police. He 
is a lifelong resident of Wilmington. He is a graduate of the 
high school that was the chief competitor of the Catholic high 
school I went to--that is the only reason I didn't like him at 
first--I am only joking; that is a joke, Chief--and the 
University of Delaware, my alma mater. Thanks for coming down 
this afternoon.
    Also on the panel this afternoon will be Bill Johnson, 
Executive Director of the National Association of Police 
Organizations, NAPO, which I would credit more than any other 
outfit for the crime bill being passed in the first place, 
particularly Mr. Scully, who was your predecessor. They were 
instrumental in passing the bill in 1994.
    Bill, I am glad to have you here today.
    Bill Johnson is a former police officer and prosecutor. He 
served with the old Orchard Branch, Maine, Police Department, 
and then with the Miami, Florida, State's attorney's office. 
Bill is a native of Chicago. He received his undergraduate 
degree from Brown University and his law degree from 
Georgetown.
    I would like to welcome you, Bill.
    Tommy Ferrell is the sheriff of Adams County, Mississippi. 
Where I come from, notwithstanding the chief, I like the 
sheriffs on my side. The sheriff is the First Vice President of 
the National Sheriffs' Association.
    People who come from States where they don't rely on 
sheriffs as much should understand that they are a significant 
law enforcement element. In many cases, they control the 
prisons in their counties, as well as they do law enforcement 
duties.
    He will soon be sworn in as president of that organization 
later this year. Chief Ferrell began his law enforcement career 
in 1969 and is presently in his third term as sheriff. He also 
serves as a lieutenant colonel in the military police branch of 
the Army National Guard.
    Thank you for being here, Sheriff.
    Finally, David Muhlhausen is a policy analyst, and a really 
first-rate one, from the Heritage Foundation. He holds a 
master's degree in policy sciences from the University of 
Maryland. This is his second appearance before this 
subcommittee and I thank him for coming back. We learned a lot 
from his first appearance.
    So, Mayor Hays, if you will, will you please proceed?

 STATEMENT OF HON. PATRICK HENRY HAYS, MAYOR, LITTLE ROCK, AR, 
           ON BEHALF OF THE U.S. CONFERENCE OF MAYORS

    Mayor Hays. Senator, it is good to be with you again, and I 
might add you began my career in 1973. Actually, in 1971 I had 
a chance to come up here from Arkansas and work on the staff of 
John McClellan. I came back in 1972 and was in the Office of 
General Counsel for LEAA for a summer, and had an opportunity 
to do a little bit of legal work. I think that agency had run 
its course and I think the movement toward its elimination was 
a wise act by Congress.
    Also, what we are doing here now in regard to the 
continuation of the COPS program is extremely important, and I 
want to thank you for calling today's hearing, as well as 
Senator Grassley and the entire subcommittee.
    Mayors have consistently attached a high priority to 
preparing our cities for the possibility of disasters, both 
natural and man-made. Now, in the wake of September 11 and the 
anthrax mailings, emergency management planning has been 
redoubled and there have been significant new deployments of 
public safety resources.
    The Conference of Mayors released a survey which found that 
from September 11, 2001, to the end of 2002, cities will spend 
an additional $2.6 billion on new homeland security priorities, 
including equipment, overtime, and training.
    I might add, Senator, it seems like you have been in city 
halls around the country because of your opening statement 
reflects a lot of what I am going to mirror in my comments.
    Mayors know the importance of public safety and are one 
hundred percent committed to the homeland war against 
terrorism, but we must forge a new Federal-local partnership to 
make sure that our domestic soldiers--police, fire and 
emergency workers, and other city employees--have the resources 
to meet this new challenge. This was the message that mayors 
and police chiefs carried to Congress last week, and I again 
wanted to thank you for participating in our discussions and 
that press conference that was held out in front of the 
Capitol.
    In October of 2001, the Conference of Mayors sponsored a 
safety and security summit, at which we developed a national 
action plan covering transportation security, emergency 
management, and law enforcement.
    I might ask the Senator if we could enter this into the 
record of these proceedings.
    Chairman Biden. Yes, both will be entered into the record, 
if that is all right.
    Mayor Hays. That would be my hope. Thank you, Senator.
    Regarding supporting our first responders, Senator, if I 
could add, at our January 24 White House meeting this year, 
with over 300 mayors present, President Bush announced his $3.5 
billion first responders initiative, which we praised as an 
important step forward. We stated then that we want to work 
directly with Congress to refine that proposal and to make sure 
that those dollars are provided in the most efficient and 
effective manner.
    To that end, Senator, it is our belief that funding must be 
provided directly to the cities and counties as first 
responders, as you said in your opening statement, rather than 
flowing through the States as currently proposed by the 
administration. As we know, dialing 911 does not get you a 
State trooper.
    Secondly, we must ensure that funding can be used to not 
only prepare for a possible attack, but also to help prevent 
future attacks. Our police departments must have access to 
funding, and officer deployments such as overtime should be 
specifically authorized.
    For example, mayors call for and support the more detailed 
terrorist alert system unveiled by Governor Ridge, but these 
alerts will continue to require more officers on the streets; 
in essence, national security being provided by local law 
enforcement.
    This is why the Conference of Mayors strongly supports 
legislation being sponsored by Senator Clinton and others to 
create a highly flexible homeland security block grant, the 
ongoing fight against crime, as you talked about, Senator. And 
let me address specifically the kinds of choices that face me. 
And you indicated in your chart that several areas have been 
cut, but let me add one more.
    The public housing drug elimination program, administered 
by HUD, was eliminated last year. My city received $188,000 
from our housing authority under this grant to operate three 
precinct stations located in our housing projects. All three 
now face elimination. This reduction, along with homeland 
security requirements, will make me choose between protecting 
my citizens against a terrorist who may attack my community and 
those terrorists or criminals who strike my city everyday.
    The worst terrorist to most of us in America is the one who 
lives next door and who, through fear of daily crime, keeps you 
from living your life. Public safety is achieved by balancing 
of resources to needs, and every community is different. That 
is why, as we wage the new war against terrorism, we must not 
retreat from the ongoing fight against crime.
    In the 1990s, mayors worked closely with our police chiefs 
and officers to increase public safety, with dramatic results, 
as indicated by your charts. As of last year, violent crime was 
estimated to be at a 20-year low nationwide. Mayors know that 
the major factors in this crime reduction were additional 
officers on the street, the deployment of new technology, and a 
new focus on community policing, all of which were greatly 
assisted by the COPS program and local law enforcement block 
grants.
    Just last week, the Conference of Mayors sponsored an event 
in Baltimore which highlighted a 24-percent crime reduction in 
that city over the past 2 years. Baltimore Mayor O'Malley was 
emphatic: ``This would not have been possible without the help 
of Federal resources.'' You will find similar stories in cities 
large and small all across this Nation.
    But while there have been major reductions, crime is still 
a major issue in many cities and in many neighborhoods within 
those cities. In addition, we know that the key indicators, 
such as the economy and the return of more than 600,000 ex-
convicts annually to our cities, have led experts to predict an 
upswing in crime rates.
    Between 1993 and 2000, crime in North Little Rock, as the 
national average reflects, was down over 27 percent. But last 
year we received a 9-percent increase in our statistics--the 
largest single increase since I have been mayor of our 
community.
    Many cities want to hire additional officers, move existing 
officers into the streets, and place new officers in schools. 
In addition, there is a major interest in new crime-fighting 
technologies. Let me add, for example, in Arkansas today our 
statewide newspaper announced, through Senator Hutchinson and 
Senator Lincoln, $645,043 in COPS grants to police departments 
in Arkadelphia, Arkansas; Prairie Grove, Arkansas; Stutgart, 
Arkansas; and the White County Sheriff's Office, to work with 
schools and community organizations against school-related 
crime. Senator Hutchinson, of Arkansas, is quoted as saying 
``Every child deserves the ability to learn absent the fear of 
violence.''
    Senator this is why I find it difficult, if not impossible, 
to understand that OMB is proposing to cut the COPS program by 
80 percent and eliminate the block grant program by merging it 
into the State Byrne grant. This comes on top of a 25-percent 
reduction in the local block grant last year. We must ensure 
that cities have the resources needed to fight both the 
domestic war on terrorism and the continuing war against crime. 
We simply cannot rob Peter to pay Paul.
    I want to thank the chairman for sponsoring bipartisan 
legislation, S. 924, to reauthorize the COPS program, and urge 
this subcommittee to help us ensure that both COPS and local 
law enforcement block grants are funded for this year.
    Finally, I might add that we need a new communications 
system between Federal and local public safety officials, with 
a 24-hour threat assessment capability appropriate for sharing 
intelligence. Our discussions with the administration on this 
point have been constructive, but we want to ensure that any 
institutional barriers to greater intelligence-sharing by the 
Federal Government are addressed. As such, we urge passage of 
the Federal-Local Enforcement Sharing Partnership Act, S. 1615, 
which will allow the Federal Government to increase 
intelligence-sharing with local and State governments.
    Senator, in conclusion, I would like to thank the 
subcommittee for this opportunity to testify. I look forward to 
continued discussions together as we work together to 
strengthen our mutual homeland defense.
    Thank you very much.
    [The prepared statement of Mayor Hays follows:]

  Testimony of Patrick Henry Hays, Mayor of North Little Rock, AR, on 
            Behalf of the United States Conference of Mayors

    Good afternoon. I am Patrick Hays, Mayor of North Little Rock, 
Arkansas. I have served as Mayor for over 13 years, starting in January 
of 1989. I am here today on behalf of The U.S. Conference of Mayors, 
for which I serve as a Trustee and member of the Executive Committee.
    I want to thank Chairman Biden for calling today's hearing, as well 
as Senator Grassley and the entire Subcommittee.
    Mayors have consistently attached a high priority to preparing our 
cities for the possibility of disasters--both natural and man made.
    Now, in the wake of September 11 and the anthrax mailings, 
emergency management planning has been redoubled, and there have been 
significant new deployments of public safety resources.
    The Conference of Mayors released a survey which found that from 
September 11, 2001 through the end of 2002, cities will spend an 
additional $2.6 billion on new homeland security priorities including 
equipment, overtime and training.
    Mayors know the importance of public safety and are 100 percent 
committed to the homeland war against terrorism. But we must forge a 
new federal-local partnership to make sure that our domestic soldiers--
police, fire, emergency workers and other city employees--have the 
resources needed for this new challenge.
    This was the message mayors and police chiefs carried to Congress 
last week, and I want to thank Chairman Biden for participating in our 
discussions.
    In October of 2001 the Conference of Mayors sponsored a Safety and 
Security Summit at which we developed a National Action Plan covering 
transportation security, emergency management, and law enforcement.
    I ask that our plan be entered into the record, and would like to 
touch on several key points related to law enforcement.
                    supporting our first responders
    First, at a January 24 White House meeting with 300 mayors 
President Bush announced his $3.5 billion first responders initiative, 
which we praised as an important step forward. As we stated then, we 
want to work directly with Congress to refine that proposal and make 
sure that those dollars are provided in the most efficient and 
effective manner.
    To that end, it is our belief that funding must be provided 
directly to city and county first responders, rather than all flowing 
through the states as proposed by the Administration.
    After all, a 9-1-1 call does not get a state trooper.
    Second, we must ensure that the funding can be used to not only 
prepare for a possible attack, but to also help prevent future attacks. 
Our police departments must have access to the funding, and officer 
deployments such as overtime should be specifically authorized.
    For example, mayors called for and support the more detailed 
terrorism alert system unveiled by Governor Ridge, but these alerts 
will continue to require more officers on the streets--in essence 
national security being provided by local law enforcement.
    This is why the Conference of Mayors strongly supports legislation 
being sponsored by Senator Clinton and several other Senators to create 
a highly flexible Homeland Security Block Grant.
                    the ongoing fight against crime
    Let me address specifically the kind of local choices mayors face.
    Last year the Public Housing Drug Elimination Program, run through 
HUD, was eliminated. My city received $188,000 from our housing 
authority under this grant to operate three precinct stations located 
in our housing projects. All three now face elimination.
    This reduction, along with homeland security requirements, will 
make me choose between protecting my citizens against a terrorist who 
may attack my community, and those terrorists or criminals which strike 
my city every day.
    The worst terrorist to most of America is the one who lives next 
door, and who through fear of daily crime keeps you from living your 
life.
    Public safety is achieved by a balancing of resources to needs, and 
every community is different.
    That is why as we wage the new war against terrorism, we must not 
retreat from the ongoing fight against crime.
    In the 1990's, mayors worked closely with our policy chiefs and 
officers to increase public safety--with dramatic results. As of last 
year, violent crime was estimated to be at a 20-year low nationwide.
    Mayors strongly believe that major factors in this crime reduction 
were additional officers on the streets, the deployment of new 
technology, and a new focus on community policing--all of which were 
greatly assisted by the COPS program and Local Law Enforcement Block 
Grant (LLEBG).
    Just last week the Conference of Mayors sponsored an event in 
Baltimore which highlighted a 24 percent crime reduction in that city 
over the past two years. Baltimore Mayor O'Malley is emphatic that this 
would not have been possible without the help of these federal 
resources, and you would find similar stories in cities large and small 
across the Nation.
    But while there have been major reductions, crime is still a major 
issue in many cities, and in many neighborhoods within cities.
    In addition, we know that key indicators, such as the economy and 
return of more than 600,000 ex-convicts annually to our cities, have 
led some experts to predict an upswing in crime rates.
    Many cities want to hire additional officers, move existing 
officers onto the streets, and place new officers in schools. In 
addition, there is a major interest in new crime fighting technologies.
    That is why we find it counterintuitive that OMB is proposing to 
cut COPS by 80 percent and eliminate the block grant by merging it into 
the state Byrne Grant program. This comes on top of a 25 percent 
reduction in the local block grant last year.
    We must ensure that cities have the resources needed to fight both 
the domestic war on terrorism and the continuing war against crime. We 
simply cannot ``Rob Peter to Pay Paul.''
    I want to thank Chairman Biden for sponsoring bi-partisan 
legislation (S. 924) to reauthorize the COPS program, and urge this 
Subcommittee to help us ensure that both COPS and the Local Law 
Enforcement Block Grant are funded this year.
               federal-local law enforcement cooperation
    Finally, we need a new communications system between federal and 
local public safety officials with a ``24/7'' threat assessment 
capability and appropriate sharing of intelligence.
    Our discussions with the Administration on this have been 
constructive, but we want to ensure that any institutional barriers to 
greater intelligence sharing by the federal government are addressed.
    That is why we urge passage of the ``Federal-Local Information 
Sharing Partnership Act'' (S. 1615) which would allow the federal 
government to increase intelligence sharing with local and state 
governments.
                               conclusion
    I want to thank the Subcommittee for this opportunity to testify, 
and I look forward to continued discussions as together we work to 
strengthen our Nation's homeland defense.

    Chairman Biden. Thank you very much, Pat.
    Mayor Hood, welcome.

STATEMENT OF HON. GLENDA E. HOOD, ORLANDO, FL, ON BEHALF OF THE 
                   NATIONAL LEAGUE OF CITIES

    Mayor Hood. Thank you, Mr. Chairman, and to you and members 
of the subcommittee I want to thank you for giving the National 
League of Cities an opportunity to testify today.
    Mayor Hays and I work very closely on things between the 
U.S. Conference of Mayors and the League of Cities, so it is 
always good to share things with him. I think we are all aware 
that we are very pleased to have this opportunity because of 
the sharing of our position on homeland security and the 
imminent needs of our local law enforcement agencies.
    The National League of Cities is the Nation's oldest 
national association that represents municipal interests in 
Washington. NLC's membership includes more than 18,000 cities, 
and it also has 135,000 mayors and local elected officials as 
its members.
    At this time, I would ask that my written testimony be 
submitted for the record, with any additional letters and 
statements from my colleagues throughout the Nation who express 
strong bipartisan support for the Community-Oriented Policing 
Services program and the related programs that are extremely 
vital to our local public safety needs for crime prevention, 
for drug control, for technology deployment, for emergency 
communications, and new responsibilities for homeland security.
    Chairman Biden. Without objection, it will be placed in the 
record.
    Mayor Hood. Thank you.
    On behalf of NLC, I would like to express again my 
gratitude to you for introducing Senate bill 924. This 
reauthorization of the Community-Oriented Policing Services 
program is important to us, and to expand its purpose to 
include special assistance for small cities with populations of 
50,000 or less and, of course, more funding for police officers 
hired through the universal hiring program, along with 
community-based prosecution programs and partnerships with 
schools and faith-based or religiously-affiliated 
organizations. Your longstanding leadership has certainly 
showed a commitment to ensuring that communities across the 
Nation are safe and secure, and I think that is everybody's 
goal.
    The COPS program and other programs such as the local law 
enforcement block grant face significant changes in the 
administration's fiscal year 2003 budget proposal. Cities need 
vital funding for local public safety needs, and I can't 
underline and emphasize that enough. The National League of 
Cities believes it is imperative that Congress maintain level 
funding for these programs.
    Since the COPS program was created in 1994, the Nation has 
experienced a 28-percent reduction in crime. Similarly, the 
local law enforcement block grant has helped fund numerous 
successful crime prevention programs that serve specific local 
needs for our youth, for community organizations, for public 
safety technology, and for overtime pay for police officers in 
certain situations such as September 11.
    The administration has proposed a first responder 
initiative that I know Mayor Hays spoke of, to fund needs for 
local and State emergency preparedness capacities and 
capabilities against terrorism, such as planning and equipment 
and training and exercises. This proposal should also address 
critical needs for crime prevention.
    As NLC's current president Mayor Karen Anderson, of 
Minnetonka, Minnesota, whom you met with last week, Mr. 
Chairman, has stated, ``There is more to homeland security than 
protecting against a terrorist attack. We need to work together 
to strengthen our homeland defenses and assess other long-term 
needs that will strengthen our communities.''
    Mayor Anderson goes on to say, ``Let's make sure we don't 
rob Peter to pay Paul in fiscal year 2003 or beyond. Let's work 
together to find the right balance that takes into account the 
importance of investing in our cities and towns.''
    In this regard, the National League of Cities supports 
continued funding for community policing and the local law 
enforcement block grant. These programs should not be 
eliminated, especially when cities and towns of all sizes are 
facing severe budget constraints.
    To the extent that the local law enforcement block grant 
and Byrne grant may be consolidated, it is critical that as 
many dollars as possible are sent to the local level, with as 
much flexibility as possible. These programs directly impact 
both local hometown security and national homeland security 
priorities. Again, I believe this is everyone's goal.
    I don't have any props for you today, but I do have a lot 
of great examples, and I am going to start with my own city of 
Orlando. In Orlando, 103 police officers have been hired 
through the COPS program. The COPS technology program has 
funded 86 mobile data terminals and 13 specialized laptops to 
increase efficiency and to decrease response times in our 
community.
    If overall COPS funding were reduced, I would be unable to 
put the officers on the streets as quickly as our growth needs 
demand that I do. I may even be put in the situation to reduce 
other fundamental public services to continue the community 
policing and crime prevention initiatives that have fostered 
that significant decrease in crime in my city. This is truly 
unacceptable, not only to my city but to all cities, especially 
when a majority of local and State budgets are in decline in 
many ways.
    Let me give you another example in my own State of Florida, 
the city of Pembroke Pines. They have used the COPS funding for 
several initiatives to increase patrols around schools and 
businesses, to expand bicycle patrols to increase community 
contact with officers, to establish a community affairs unit, 
and to ensure more effective prosecution of cases through an 
enhanced records management system.
    Mayor Alex Fekete stated that these initiatives would not 
have been possible without the financial impetus provided by 
the COPS grant awards. Any reduction, in Mayor's Fekete's mind, 
to the COPS program in fiscal year 2003 could curtail further 
capabilities of his city to expand its community policing 
initiatives.
    Another example is the city of Wichita, which has hired 125 
police officers through the COPS program, and has experienced 
more than a 22-percent decline in crime since 1994. Former NLC 
president and mayor of Wichita, Bob Knight, stated that 
neighborhood associations and crime prevention partnerships 
have grown from only 8 to more than 80 since 1995.
    ``Community policing officers have played a significant 
role in bringing citizens together to identify safety and 
security issues,'' says Mayor Knight. He also says that the 
result has been the development of neighborhood associations 
that can form partnerships with businesses, with churches, with 
non-profit organizations, with governments, and with 
educational institutions to identify solutions for positive 
change.
    His superintendent of public schools, Winston Brooks, noted 
that students and staff benefit daily from school resource 
officers who provide law-related educational programs, informal 
counseling sessions, mentoring and tutoring, and assistance 
with school safety and crisis response planning.
    Another example is Mayor John DeStefano, whom you met with 
last week as well, from New Haven, Connecticut. He says he has 
experienced significant declines in all of the Part I crimes in 
his city since 1994. Homicides are down 42 percent, robberies 
have decreased by 33 percent, and motor vehicle thefts have 
declined by more than 59 percent. He noted that any loss of 
dollars for both technology and other competitive grants would 
negatively impact the city's police department, thereby 
preventing expanded partnerships with community groups and 
impeding the overall problem-solving capacity within his city.
    ``The proposed changes in the COPS would have a negative 
effect on our crime statistics,'' Police Chief Melvin Wearing, 
of New Haven, says. He says, ``We have seen continued decreases 
since the program's inception, and we have been able to 
maintain those lower numbers as a result.''
    In the city of Hayward, California, they have implemented 
several crime prevention initiatives through the COPS program, 
including a successful community collaboration with 
neighborhood groups and other non-profit organizations. The 
Hayward Police Department also acquired 100 laptop computers, a 
new management information system, property and mapping 
modules, and network connection to State and Federal law 
enforcement networks through the technology component of the 
COPS program.
    ``If funding were reduced or eliminated, progress could be 
slowed significantly,'' according to council member Olden 
Henson. ``Our ability to grow and adapt to the changing needs 
of our community would be negatively impacted without COPS-
funded initiatives,'' he goes on to say.
    The COPS program has also been vital in preventing the 
proliferation of gang activity and methamphetamine 
manufacturing and trafficking in the city of Watertown, South 
Dakota. Their mayor, Brenda Barger, says, ``By hampering these 
two ills in the community, we have managed to prevent the 
collateral effects, such as robbery, assault, and other 
crimes.'' ``Since we have hired the additional officers,'' she 
says, ``we have enhanced crime prevention efforts by adding 
bike patrols, crime-free multi-housing initiatives, a school 
resource officer, a very effective accident reduction program, 
and recruitment of community-oriented officers through COPS 
training for supervisors.''
    ``On a day-to-day basis,'' Mayor Barger says, ``officers 
have more time to interact and assimilate with the community 
they serve. I feel that our policing style has contributed 
greatly to the quality of life in our community. The result of 
elimination would be rather obvious, and it would be obvious 
very quickly. Programs would have to be cut. Crime would again 
begin to increase. Quality of life in the community would 
decline.''
    Well, Mr. Chairman, I think these are just a few examples 
that represent the thousands of successful crime prevention 
initiatives that have been funded by the COPS program. Our 
country, especially now, needs community policing. It is 
something that we all believe in and it is something that we 
have all depended upon.
    The best way to ensure domestic safety is through continued 
community partnerships, through problem-solving and enhanced 
communication that COPS indeed has facilitated since 1994. Full 
funding for COPS and other public safety programs must continue 
to be a cornerstone in effective law enforcement over the next 
several years as we face those many domestic challenges that 
lie ahead.
    I greatly appreciate your leadership on this issue, and on 
behalf of NLC thank you. We certainly look forward to working 
with you and the House and Senate Appropriations Committees as 
the fiscal year 2003 budget process moves forward to ensure 
full funding for local public safety programs.
    Thank you.
    Chairman Biden. Mayor, thank you very much. I am going to 
come back to questions, but out of curiosity, has Orlando's 
population shrunk since you have been mayor?
    Mayor Hood. No.
    Chairman Biden. Has it grown?
    Mayor Hood. Yes.
    Chairman Biden. Most cities, particularly larger cities, 
but all cities, end up being the repository for an increasingly 
large number of dependent people; that is, people with lower 
incomes, people dependent on various programs to make their 
minimum subsistence.
    Have you had any change in the make-up of your city that 
way, or is it the same? Have those living at the poverty level 
or below the poverty level increased or decreased? Do you know, 
off the top of your head?
    Mayor Hood. Slight fluctuations, but nothing major.
    Chairman Biden. Yes.
    Mayor Hood. Of course, in our situation we have over 40 
million visitors a year. So that is kind of a phenomenon that 
we have that many other cities don't have.
    Chairman Biden. Which was the third thing I was going to 
ask you. Nonetheless, your crime rate went down?
    Mayor Hood. Yes.
    Chairman Biden. Astounding.
    [The prepared statement of Mayor Hood follows:]

  Statement of the Honorable Glenda E. Hood, Mayor of Orlando, FL, on 
                Behalf of the National League of Cities

    Chairman Biden and Members of the Subcommittee, the National League 
of Cities (NLC) is pleased to have this opportunity to share its 
position on homeland security and the imminent needs of our local law 
enforcement agencies. I am Glenda Hood, Mayor of Orlando, Florida, and 
Past President of the National League of Cities.
    The National League of Cities is the nation's oldest national 
association representing municipal interests in Washington. NLC's 
membership includes more than 18,000 cities and towns across the 
country, with over 135,000 mayors and local elected officials.
    At this time, I ask that my written testimony be submitted for the 
record with additional letters and statements from my colleagues 
throughout the nation who express strong bipartisan support for the 
Community Oriented Policing Services (COPS) program and related 
programs that are extremely vital to local public safety needs for 
crime prevention, drug control, technology deployment, emergency 
communications, and new responsibilities for homeland security.
    On behalf of NLC, I would like to express my gratitude to you, Mr. 
Chairman, for introducing S. 924, the PROTECTION ACT (Providing 
Reliable Officers, Technology, Education, Community Prosecutors, and 
Training In Our Neighborhoods Act) to reauthorize the Community 
Oriented Policing Services Program and expand its purpose to include 
special assistance for small cities with populations of 50,000 or less; 
more funding for retention of police officers hired through the 
Universal Hiring Program; community-based prosecution programs; and 
partnerships with schools and religiously-affiliated organizations. 
Your long-standing leadership on this issue clearly shows your 
commitment to ensuring that communities across the nation are safe and 
secure.
    As you know, the COPS program, and other programs such as the Local 
Law Enforcement Block Grant, face significant changes in the 
Administration's fiscal year 2003 budget proposal. Cities need vital 
funding for local public safety needs. The National League of Cities 
believes it is imperative that Congress maintain level funding for 
these programs.
    Since the COPS program was created in 1994, the nation has 
experienced a 28 percent reduction in crime. Similarly, the Local Law 
Enforcement Block grant has helped fund numerous successful crime 
prevention programs that serve specific local needs for youth, 
community organizations, public safety technology and overtime pay for 
police officers in certain situations such as September 11.
    The Administration has proposed a First Responder Initiative to 
fund needs for local and state emergency preparedness capabilities 
against terrorism--such as planning, equipment, training and exercises. 
This proposal should also address critical needs for crime prevention.
    As NLC's current President, Mayor Karen Anderson of Minnetonka, 
Minnesota, has stated, ``There's more to homeland security than 
protecting against a terrorist attack. We need to work together to 
strengthen our homeland defenses and assess other long-term needs that 
will strengthen our communities. Let's make sure we don't rob Peter to 
pay Paul in FY 2003 or beyond. Let's work together to find the right 
balance that takes into account the importance of investing in our 
cities and towns.''
    In this regard, NLC supports continued funding for community 
policing and the Local Law Enforcement Block Grant. These programs 
should not be eliminated, especially when cities and towns of all sizes 
are facing severe budget constraints because of the recession and 
unforeseen consequences of the September 11 terrorist attacks. To the 
extent the Local Law Enforcement Block Grant and Byrne Grant are 
consolidated, it is critical that as many dollars as possible are sent 
to the local levels with as much flexibility as possible. These 
programs directly impact both local hometown security and national 
homeland security priorities.
    For example, the proposed changes in the COPS program would 
eliminate funding for hiring and retention of police officers, school 
resource officers, and targeted crime prevention grant programs for 
small communities.
    In my City of Orlando, 103 police officers have been hired through 
the COPS program. The COPS technology program, Making Officer 
Redeployment Effective, has funded 86 mobile data terminals and 13 
specialized laptops to increase efficiency and decrease response times. 
If overall COPS funding were reduced, I would be unable to put officers 
on the streets as quickly as our growth needs demand; and I may be put 
in the position to reduce other fundamental public services to continue 
the community policing and crime prevention initiatives that have 
fostered a significant decrease in crime. This is unacceptable to our 
cities, especially when a majority of local and state budgets are in a 
serious decline.
    The City of Pembroke Pines, Florida, has used COPS funding for 
several initiatives to increase patrols around schools and businesses; 
expand bicycle patrols to increase community contact with officers; 
establish a Community Affairs Unit; and ensure more effective 
prosecution of cases through an enhanced records management system. 
Mayor Alex Fekete stated that these initiatives would not have been 
possible without the financial impetus provided by the COPS grant 
awards. Any reduction of the COPS Program in FY 2003 could curtail any 
further capabilities of the City to expand its community policing 
initiatives.
    The City of Wichita has hired 125 police officers through the COPS 
program, and has experienced more than a 22 percent decline in crime 
since 1994. Former NLC President and Mayor of Wichita, Bob Knight, 
stated that neighborhood associations and crime prevention partnerships 
have grown from only eight to more than eighty since 1995. ``Community 
policing officers have played a significant role in brining citizens 
together to identify safety and security issues. The result has been 
the development of neighborhood associations that can form partnerships 
with businesses, churches, non-profit agencies, government, and 
educational institutions to identify solutions for positive change.''
    Winston Brooks, Superintendent of Wichita Public Schools, noted 
that students and staff benefit daily from school resource officers who 
provide law related educational programs, informal counseling, 
mentoring, tutoring, and assistance with school safety and crisis 
response planning.
    The City of New Haven, Connecticut, has experienced significant 
declines in all Part I crimes since 1994. For example, homicides are 
down by 42 percent; robberies have decreased by 33 percent; and motor 
vehicle thefts have declined by more than 59 percent. NLC First Vice 
President and Mayor John DeStefano noted that the loss of dollars for 
both technology and other competitive grants would negatively impact 
the City's police department, preventing expanded partnerships with 
community groups and impeding the overall problem-solving capacity. The 
proposed changes in the COPS program would have a ``negative effect on 
our crime statistics,'' Police Chief Melvin Wearing stated. ``We have 
seen continued decreases since the program's inception, and we have 
been able to maintain the lower numbers.''
    The City of Hayward, California, has implemented several crime 
prevention initiatives through the COPS program including a successful 
Community Collaborative with neighborhood groups and other non-profit 
organizations. The Hayward Police Department also acquired 100 laptop 
computers, a new management information system, property and mapping 
modules, and a network connection to state and federal law enforcement 
networks through the technology components of the COPS program. ``If 
funding were reduced or eliminated, progress could be slowed 
significantly, according to Councilmember Olden Henson. ``Our ability 
to grow and adapt to the changing needs of our community would be 
negatively impacted without COPS-funded initiatives.''
    The COPS program has been vital in preventing the proliferation of 
gang activity, and methamphetamines manufacturing and trafficking in 
the City of Watertown, South Dakota. ``By hampering these two ills in 
our community, we have managed to prevent the collateral effects such 
as robbery, assault, and other crimes,'' said Mayor Brenda Barger. 
``Since we have hired the additional officers, we have enhanced crime 
prevention efforts by adding bike patrols, crime free multi-housing 
initiatives, a school resource officer, a very effective accident 
reduction program, and recruitment of community oriented officers 
through COPS training for supervisors.
    ``On a day-to-day basis, the officers have more time to interact 
and assimilate with the community they serve,'' Mayor Barger continued. 
``I feel that our policing style has contributed greatly to the quality 
of life in our community. The result of elimination would be obvious 
rather quickly. Programs would have to be cut. Crime would again begin 
to increase. Quality of life in the community would decline.''
    Mr. Chairman, these examples represent the thousands of successful 
crime prevention initiatives funded by the COPS program. The country--
especially now--needs community policing. The best way to ensure 
domestic safety is through the continued community partnerships, 
problem solving, and enhanced communication that COPS has facilitated 
since 1994. Full funding for COPS and other public safety programs must 
continue to be a cornerstone in effective law enforcement over the next 
several years as we face the domestic challengers ahead.
    Mr. Chairman and Members of the Subcommittee, I greatly appreciate 
your leadership on this issue, and look forward to working with you and 
the House and Senate Appropriations Committees as the fiscal year 2003 
budget process moves forward to ensure full funding for local public 
safety programs. I would be happy to answer any questions that the 
Subcommittee may have at the appropriate time.
    Thank you.

    Chairman Biden. Chief Szczerba, welcome. The floor is 
yours.

 STATEMENT OF MICHAEL J. SZCZERBA, CHIEF OF POLICE, WILMINGTON 
               POLICE DEPARTMENT, WILMINGTON, DE

    Chief Szczerba. Good afternoon, Senator. I was a little 
uneasy speaking here today, after you lined me up with mayors, 
I don't know what Mayor Baker is going to think when I get back 
home.
    Chairman Biden. You will be fine.
    Chief Szczerba. I would like to thank you for inviting me 
here to speak today on this very important issue.
    For the record, my name is Chief Michael Szczerba. I am the 
chief in the city of Wilmington, Delaware. I haven't brought 
any props either today, but I did bring along with me my deputy 
chief, Inspector James Wright.
    Chairman Biden. Inspector, welcome.
    Chief Szczerba. Like the sheriff, he is also a lieutenant 
colonel in our Delaware National Guard. Hopefully, this time 
next year I will address him as ``colonel.''
    The Wilmington Department of Police has an authorized 
strength of 289 officers. We are tasked with the job of 
policing a city of about 14 square miles. We have a residential 
population of 75,000 people, and that number probably doubles 
during our business hours.
    In 1996, the city of Wilmington experienced once of its 
worst economic downturns in recent history. This crisis 
affected every aspect of the city's budget, including that of 
the police department. Through retirement incentives and 
attrition, the Department of Police in Wilmington reached an 
all-time low in staffing, with the numbers plummeting to 221 
officers. And I would emphasize that was 221 officers on paper.
    Along with this decrease in manpower, the city experienced 
one of the most catastrophic increases in gun violence to date. 
In 1996, we saw a record number of 108 shootings and 21 
homicides in a city that prior to that never saw more than 40 
shootings or 12 homicides annually. Our city was under siege, 
and staffing was so low that neighboring police agencies 
offered their personnel and resources to help the city combat 
this growing epidemic.
    Through the Biden crime law--and that is how we know it in 
Delaware still--the Department of Police was able to hire 28 
officers through the use of Federal funds. These Federal funds 
replaced resources that our city just did not have. The 
assistance from the Biden crime law, as we call it in Delaware, 
did not end there. On October 3, you and then-Mayor James 
Sills, and Police Chief Michael Boykin announced a 
comprehensive crime-fighting plan, dubbed Operation Quiet 
Storm, which was based on strategies employed in other large 
cities nationally that had reduced crime rates significantly.
    Operation Quiet Storm was designed to storm five identified 
crime hot spots with local law enforcement resources working in 
concert with Federal law enforcement agencies to attack the 
problems of gangs, guns, and drugs. With numbers back to its 
authorized strength, the Wilmington Department of Police acted 
as the lead agency in this effort, resulting in cutting the 
amount of shootings in half and decreasing homicides by 40 
percent.
    This is just one example of the impact that the crime law 
has had on local law enforcement agencies. Speaking 
specifically for the city of Wilmington, the funds procured 
through the local law enforcement block grant provided by the 
crime law has allowed the Wilmington Department of Police to 
increase its services to the city of Wilmington by increasing 
current programs and reinstituting programs that had been cut 
due to budget constraints.
    For example, as a result, we were able to expand our K-9 
unit from 6 to 10 officers. Our crime prevention unit, which 
instills community-oriented policing, suffered from budget 
cuts, yet remains a constant request from our residents and our 
business folks. That was re-funded and is now providing an 
invaluable service to help people take proactive steps to 
protect themselves.
    We have increased our computer systems and our forensic 
technology, including the purchasing of an IBIS system, or 
Ceasefire. Wilmington is only one of about 20 sites in 12 
States throughout the country to have this sophisticated, 
computerized, digitized weapon and bullet identification 
system. The system is designed to cease the escalating and 
alarming number of gun-related crimes and homicides in 
Wilmington and other cities throughout the country, and it has 
had a positive impact on our investigative techniques.
    One of the best aspects of the local law enforcement block 
grant is allowing the Department of Police to institute anti-
drug patrols in areas that have been torn apart by the scourge 
of drugs.
    As the climate in this country has changed, attention must 
be placed on homeland security. However, homeland security has 
a two-pronged definition, the first being the most obvious, and 
that is taking measures to ensure that the tragedies that 
affected this country never occur again.
    The second is providing the security of those who live day 
to day in our cities and communities. The onus of that security 
falls on us in local law enforcement. The Biden crime law has 
made it possible for us to allow the quality of life in all of 
our cities and communities to increase, as the national crime 
trends have decreased.
    In these hard times where some communities like the city of 
Wilmington are reaching economic hardships, homeland security 
comes in the form of our front-line officers, who rely in part 
on the resources provided by the COPS office. I fear that if 
these resources are restricted, history will repeat itself. I 
fear that police manpower will decrease, allowing gun violence 
to increase and terrorists that take the form of drug dealers 
will flourish.
    If this occurs, the quality of life in our communities, the 
real infrastructure of this country, will decrease greatly, 
undoing all the good that this crime law has done, as well as 
the hard work of all police officers in this country.
    I have provided a copy of what I have spoken on today for 
the record. It is also provided on disk, and I will be happy to 
answer any questions.
    [The prepared statement of Chief Szczerba follows:]

    Good afternoon Senators and Chairman Biden. I would like to thank 
you, Chairman Biden, for inviting me here to speak today on this very 
important issue. My name is Chief Michael J. Szczerba, Chief of the 
Wilmington Department of Police in the State of Delaware. Accompanying 
me is my Deputy Chief, Inspector James Wright. The Department of Police 
has an authorized strength of 289 sworn Officers, tasked with policing 
a city of 14 square miles, and a residential population of 75,000 
people, with that number doubling during business hours. In 1996, the 
City of Wilmington experienced one of its worst economic downturn in 
recent times. The crisis affected every aspect of the City's budget, 
including that of the Police Department. Through retirement incentives 
and attrition, the Department of Police reached an all time low of 
staffing, with numbers plummeting to 221 sworn Officers. Along with 
this decrease in manpower, the City experienced the most catastrophic 
increase in gun violence to date. 1996 saw a record number 108 
shootings and 21 homicides in a city that prior to that year never saw 
more than 40 shootings and 12 homicides annually. Our city was under 
siege, and staffing was so low that neighboring Police Agencies offered 
their personnel and resources to help Wilmington combat this growing 
epidemic.
    Through the Biden Crime Law, the Department of Police was able to 
hire 28 Officers through the use of federal funds. These federal funds 
replaced resources that our city just did not have. But assistance from 
the Biden Crime Law, as we affectionately call it in Delaware, did not 
end there. On October 3, 1997, Senator Biden, then Wilmington Mayor 
James H. Sills, Jr., and then Police Chief Michael Boykin announced a 
comprehensive crime-fighting plan, dubbed ``Operation Quiet Storm,'' 
which was based on strategies employed in other large cities nationally 
that had reduced crime rates significantly. ``Operation Quiet Storm'' 
was designed to storm five identified crime hot spots with local law 
enforcement resources working in concert with federal law enforcement 
agencies to attack the problems of gangs, guns and drugs. With numbers 
now back to its authorized strength, the Wilmington Department of 
Police acted as the lead agency in this joint effort, resulting in 
cutting the amount of shootings in half, and decreasing homicides by 40 
percent.
    This is just one but important example of the impact that the Biden 
Crime Law has had on local law enforcement agencies. Speaking 
specifically for the City of Wilmington, the funds procured through the 
Local Law Enforcement Block Grant provided by the Biden Crime Law has 
allowed the Wilmington Department of Police to increase its services to 
the citizens of the City of Wilmington by increasing current programs 
and reinstituting programs that had been cut due to budget restraints. 
As a result, we were able to expand our K-9 Unit from 6 Officers to 10 
Officers. Our Crime Prevention Unit, which instills Community Oriented 
Policing, suffered from budget cuts yet remained a constant request of 
residents, was refunded and is now providing an invaluable service to 
help people take proactive steps to protect themselves. We have 
increased our computer systems and our forensic technology, including 
the purchasing of the IBIS system, or ``Ceasefire''. Wilmington is one 
of only about 20 sites in 12 states throughout the country to have this 
sophisticated, computerized, digitized weapon and bullet identification 
system. This system is designed to cease the escalating and alarming 
number of gun-related crimes and homicides in Wilmington and other 
cities throughout this country, and it has had a positive impact on 
investigative techniques. One of the best aspects of the Local Law 
Enforcement Block Grant is it allowing the Department of Police to 
institute Anti-Drug Patrols in areas that had been torn apart by the 
scourge of drugs.
    As the climate in this country has changed, attention must be 
placed on Homeland Security. However, Homeland Security has a two-
pronged definition. The first being the most obvious . . . taking 
measures to ensure that the tragedies that affected this country never 
occur again. The second is providing the security of those who live day 
to day in our cities and communities. The onus of that security falls 
on those of us in local law enforcement. The Biden Crime Law has made 
it possible for us to allow the quality of life in all of our cities 
and communities to increase as national crime trends have decreased. In 
these hard times where some communities, like the City of Wilmington, 
are reaching economic hardships, that Homeland Security which comes in 
the form of our frontline Police Officers, relies in part, on the 
resources provided by the Cops Office. I fear that if these resources 
are restricted, history will repeat itself. I fear that Police manpower 
will decrease, allowing gun violence to increase and the terrorists 
that take the form of drug dealers will flourish. If this occurs, the 
quality of life of our communities, the real infrastructure of this 
country, will decrease exponentially, undoing all the good that the 
Biden Crime Law has done as well the hard work of the Police Officers 
in this country.

    Chairman Biden. Thank you very much, Chief. I appreciate 
your testimony.
    Mr. Johnson.

 STATEMENT OF WILLIAM J. JOHNSON, EXECUTIVE DIRECTOR, NATIONAL 
      ASSOCIATION OF POLICE ORGANIZATIONS, WASHINGTON, DC

    Mr. Johnson. Thank you, Mr. Chairman. I appreciate the 
opportunity to speak before your subcommittee today. I have 
also provided copies of my written testimony and would 
respectfully ask at the outset that it be included.
    Chairman Biden. It will be placed in the record in full.
    Mr. Johnson. Thank you, sir.
    Mr. Chairman, and to your committee, on behalf of the 
220,000 rank-and-file police officers from all across the 
United States, I would like to thank you for this opportunity 
to testify today on our Nation's homeland defense and the needs 
of local law enforcement.
    The National Association of Police Organizations, or NAPO, 
is surprised and is frankly truly concerned about the 
administration's proposed fiscal year 2003 budget and its 
intended future, or lack thereof, for the Community-Oriented 
Policing Services, or COPS, program presented administered by 
the United States Department of Justice.
    Today, I would like to discuss three paramount concerns 
that NAPO has regarding the administration's proposed budget 
and its effects. These are: the future of the COPS program, the 
grant funds overseen presently by the Office of Justice 
Assistance, and the status of State and local law enforcement 
in the war on terrorism in light of the administration's 
proposed movement of supervision of Federal assistance from the 
Department of Justice to the Federal Emergency Management 
Agency.
    Created by the 1994 crime bill, as you well know, the COPS 
Office has funded the hiring of over 110,000 police officers in 
more than 11,000 communities across the United States. In 
addition, it has contributed countless resources, including 
enhanced crime-fighting technology and the development of 
innovative partnerships with communities, to fight crime.
    Both the public and Congress recognized the benefits of 
putting more cops on the streets. These benefits have been 
further demonstrated more recently in the 2001 study at the 
University of Nebraska authored by Dr. Jihong Zhao which 
correlated the steady decline of violent crime throughout the 
United States over the last few years with the success of the 
COPS program. In fact, the charts that your staff has provided 
today demonstrate the same thing. This study was presented to 
the Subcommittee on Crime at a hearing held on December 5, 
2001.
    Despite the tremendous impact this program has had 
throughout the country, the administration's proposed fiscal 
year 2003 would effectively gut the COPS program and end the 
instrumental practice of adding new officers to the street. As 
you have pointed out, Mr. Chairman, it is very similar to 
cutting the grass one time and then sitting back and saying, 
well, I don't need the lawnmower anymore, except in this case 
what the administration, with all due respect, is doing is not 
putting it in the garage. They are throwing away the lawnmower 
and giving the money for a new one to the neighbor who has 
never seen one or knows what it is used for.
    NAPO represents the police forces of some of our Nation's 
largest cities. Therefore, we researched in preparation for 
today's hearing what effect the termination of the COPS program 
would have on the needs of some of these local law enforcement 
agencies.
    Since 1994, the city of Los Angeles has been awarded 
funding for the new hiring or redeployment of more than 3,700 
officers, put on its streets.
    Chairman Biden. An additional 3,700.
    Mr. Johnson. Yes, sir, yes, above and beyond what they had, 
more than 3,700. In funding, this has been just over $298 
million allocated to meet the requested technology and hiring 
needs of Los Angeles' local law enforcement.
    Over the same period, Miami-Dade County has benefitted from 
the addition of more than 1,100 new or redirected officers and 
the allocation of over $84 million for hiring and technological 
needs.
    The city of Chicago has gained more than 1,500 new officers 
and over $104 million, and the city of New York has benefitted 
from the addition of more than 7,300 new officers on the 
streets and over $529 million in needed improvements funding. 
These cities have also all seen a directly correlated and 
substantial reduction in crime since the mid-1990s.
    I would just point out that in New York City, that figure 
of more than 7,300 is about 18 percent of their force. They 
have got about 39,000 sworn officers. About 18 percent of those 
are COPS officers, thanks to the bill that you authored.
    As you also have pointed out today, in a time when our 
country is necessarily focused on homeland defense, we believe 
the COPS program just be an intrinsic part of any defense plan 
because it has a proven effect on crime reduction. This is why 
COPS is of such importance now. It will help protect our 
communities by increasing, and more often maintaining, the 
needed police presence on our streets, while public safety 
services are stretched and redefined to confront the ever-
changing threat of terrorism.
    Our national president, Tom Scotto, who is a New York City 
detective whom you know and many members of the committee know, 
was telling me just this morning that it has not just been 
since September 11, but since then it has been unrelenting and 
continuous drain upon every aspect of law enforcement in that 
city.
    Immediately, in the aftermath of the morning of September 
11 and through to today, all the other sites, such as the 
Statue of Liberty, the UN Building, the Brooklyn Bridge, the 
various tunnels, the power plants, the water plants, are now 
designated sites that law enforcement has to cover in a way 
that they didn't have to before. The fact that manpower must be 
diverted to these new sites takes other cops off the street 
from their regular duties.
    A second concern NAPO has regarding the administration's 
proposed fiscal year 2003 budget is the changes called for in 
the block grant and Byrne State and local law enforcement 
assistance grants, which are presently run by the Department of 
Justice's Office of Justice Assistance. These two grant 
programs have had a positive effect in strengthening law 
enforcement's ability to reduce crime and fund programs that 
make a difference in the community.
    The administration has proposed consolidating these two 
grant programs along with other smaller programs into a new 
justice assistance grant program. While the block grants and 
Byrne received a combined funding of over $1 billion in fiscal 
year 2001, the new condensed grant program would be funded at a 
much smaller dollar level, while being asked at the same time 
to cover more outlets. The outcome will be less available funds 
to assist local law enforcement at a time when public safety 
budgets are being overrun by new national security concerns.
    A third major concern that NAPO has over the 
administration's proposed budget is the movement of monies and 
supervision from the Department of Justice's Office of Justice 
Programs to the Federal Emergency Management Agency. Please do 
not understand this as an overly negative criticism of FEMA. 
FEMA can provide a valuable service to communities beaten down 
by disaster and can assist in their quick rehabilitation.
    But NAPO's concern consists in the fact that in this new 
war on terrorism, the administration wishes to move police 
interests from a body that has fostered 30 years of working 
relations with local police to a body that has never dealt with 
the needs of police before. As President Lincoln said, during 
wartime you don't change your horse midstream. It would be 
foolish to invite an internecine bureaucratic power struggle in 
the midst of an ongoing shooting war.
    While the needs of police officers as first responders are 
similar in some ways to fire and emergency services, they are 
vastly different in other ways. An agency like the Department 
of Justice, with 30 years of hard-won experience on what police 
need and how best to allocate it to them, should not be 
displaced by an agency with whom law enforcement has no such 
prior experience. We would be very disappointed if law 
enforcement lost such a great tool in its fight against crime.
    Our concerns are three-fold, then, when we look at the 
administration's proposed budget: the future of the COPS 
program, the future of the grant funding, and the need to keep 
the Department of Justice as the agency of record for the needs 
of law enforcement.
    Our country has entered a time of challenge, but it is not 
a time of insurmountable crisis. Now is when the tools that 
have proven to be so effective have to be brought out, and even 
enhanced, so that the job we face as a Nation can be done, and 
done right the first time.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Johnson follows:]

  Testimony by William J. Johnson, Executive Director of the National 
                  Association of Police Organizations

    Mr. Chairman, Senator Grassley, members of the Senate Subcommittee, 
My name is William J. Johnson and I am the Executive Director of the 
National Association of Police Organizations. NAPO is a coalition of 
police unions and associations from across the United States that 
serves here in Washington, DC to advance the interests of America's law 
enforcement through legislative and legal advocacy.
    On behalf of 220,000 rank-and-file police officers from across the 
United States, I would like to thank you for this opportunity to 
testify today on our Nation's homeland defense and the needs of law 
enforcement. NAPO is surprised and truly concerned about the 
Administration's proposed 2003 fiscal budget and its intended future 
for the Community Oriented Policing Service program (COPS), 
administered by the Department of Justice.
    Today, I will discuss three paramount concerns NAPO has on the 
Administration's proposed budget. These are the future of the COPS 
program. The beneficial grant funds overseen by the Office of Justice 
Assistance and the status of state and local law enforcement in the war 
on terrorism in light of the Administration's proposed movement of 
supervision from the Department of Justice to the Federal Emergency 
Management Agency.
    Created by the 1994 Crime bill, the COPS Office has funded the 
hiring of over 110,000 police officers in 11,300 communities. In 
addition, it has contributed countless resources, including enhanced 
crime-fighting technology and the development of innovative 
partnerships with communities to fight crime.
    Both the public and Congress recognize the benefits of putting more 
cops on the street. As it has been often and rightly said, once you've 
finished cutting the grass, you don't throw away the lawn mower.
    These benefits have been further demonstrated in the 2001 study by 
the University of Nebraska, authored by Dr. Jihong Zhao, which 
correlated the steady decline of violent crime over the last few years 
with the success of this program. This study was presented to the 
Senate Subcommittee on Crime hearing held on December 5, 2001.
    Despite the tremendous impact this program has had throughout the 
country the Administration's proposed FY 2003 budget would effectively 
gut the COPS program and end the instrumental practice of adding new 
officers to the streets.
    As NAPO represents the police forces of some of our nation's 
largest cities, we researched what effect the termination of the COPS 
program would have on the needs of some of NAPO's local law enforcement 
agencies.
    Per current information from the COPS office, since 1944 the City 
of Los Angeles has been awarded funding for the new hiring or 
redeployment of 3,731 officers to protect its streets. In funding, this 
has been just over 298 million dollars allocated to meet the requested 
technology and hiring needs of Los Angeles local law enforcement. Over 
the same period, the City of Miami has benefited from the addition of 
1,184 new or redirected officers and the allocation of over 84 million 
dollars for hiring and technological needs. The City of Chicago has 
gained 1,593 Officers and over 104 million dollars and the City of New 
York has benefited from the addition of 7,356 officers to the street 
and over 529 million dollars in needed improvements funding. These 
cities have also seen a directly related and substantial reduction in 
crime since the mid 1990's
    These figures represent what has already been allocated and we can 
only hope that these fundings are protected from proposed changes. More 
importantly these figures demonstrate that the future needs for these 
cities will no longer be addressed if the COPS program is dissolved.
    In a time when our country is necessarily focused on homeland 
defense, we believe the COPS program must be an intrinsic part of any 
defense plan because it has a proven effect on crime reduction. This is 
why COPS is of such importance now. It will help protect our 
communities by increasing, and more often maintaining, the needed 
police presence on our streets while public safety services are 
stretched and re-defined to confront the ever changing threat of 
terrorism.
    A second concern NAPO has over the Administrations proposed FY 2003 
budget are the changes called for to the Local Law Enforcement Block 
Grant Program and the Byrne State and Local Law Enforcement Assistance 
Grants, which are run by the Department of Justice's Office of Justice 
Assistance. These two block grants have had a historically positive 
effect in strengthening law enforcement's ability to reduce crime and 
fund programs that make a difference in the community.
    The Local Law Enforcement Block Grant Program has supported police 
by facilitating the hiring and training of new officers, paying 
overtime and procuring needed equipment and technology. LLEBG Funds 
also go to enhancing school safety, supporting drug courts, securing 
violent crime convictions, enhancing community policing and defraying 
the costs of officer insurances.
    LLEBG funding commenced in 1996 and awarded over 450 million 
dollars in FY2001. Since its inception the grant has provided two and 
one half billion dollars in needed support to local law enforcement, 
money we could not have done without.
    Much like the LLEGB, the Byrne Grant has awarded monies to assist 
educational and training programs for criminal justice personnel and 
has provided for technical assistance to state and local law 
enforcement. The Byrne Grant awarded over 524 million dollars in FY2001 
and has provided over five and one half billion dollars since 1990.
    The Administration has proposed consolidating these two grant 
programs, along with other smaller programs, into a new Justice 
Assistance Grant Program. While LLEGB and Byrne received a combined 
funding of over one billion dollars in FY 2001, this new condensed 
grant program would be funded at a smaller 800 million dollar level 
while being asked to cover more outlets. The outcome will be less 
available funds to assist law enforcement in a time when public safety 
budgets are being overrun by new national security concerns.
    A third concern NAPO's has over the Administrations proposed FY 
2003 budget is the movement of monies and supervision from the 
Department of Justice and Office of Justice Programs to the Federal 
Emergency Management Agency. Please do not misunderstand this as an 
overly negative criticism. FEMA can provide a valuable service to 
communities beaten down by disaster and can assist in their quick 
rehabilitation.
    NAPO's concern consists in the fact that in this new war on 
terrorism, the Administration wishes to move police interests from a 
body that has fostered 30 years of working relations to a body that has 
never dealt with the needs of police before. As President Lincoln said, 
during wartime you don't change your horse in mid stream. Further, we 
would say, you don't cut the grass once and then give away your lawn 
mower to a neighbor who doesn't know what it's for or how to use it.
    While the needs of police officers as first responders are similar 
in some ways to fire and Emergency Service, they are vastly different 
in other ways. An agency who has developed 30 years of knowledge on 
what police need and how best to allocate it to them should not be 
sidelined by an agency with whom law enforcement has had no prior 
experience. We would be very disappointed if law enforcement lost such 
a great tool in its fight against crime.
    Senators, our concerns are three fold when we look at the 
Administration's proposed budget: The future of the COPS program; the 
future of beneficial grant funding; and the need to keep the Department 
of Justice as the agency of record for the needs of law enforcement. 
Our country has entered a time of challenge but it is not a time of 
insurmountable crises. Now is when the tools that have proven to be 
effective have to be brought out and even enhanced so the job can be 
done and done right the first time. I want to thank Chairman Biden and 
the Subcommittee members for this opportunity to voice the concerns of 
America's police and I respectfully request that my remarks be included 
in the record.

    Chairman Biden. Thank you very much, Bill.
    Sheriff.

  STATEMENT OF TOMMY FERRELL, FIRST VICE PRESIDENT, NATIONAL 
               SHERIFFS' ASSOCIATION, NATCHEZ, MS

    Sheriff Ferrell. Thank you, Mr. Chairman. I, too, 
appreciate the opportunity and thank you for the invitation 
today.
    I am Sheriff Tommy Ferrell, from Adams County, Mississippi, 
and I appear before you as the first vice president of the 
National Sheriffs' Association.
    Chairman Biden. Sheriff, out of curiosity--I know your 
State--where is your county in the State, north, south?
    Sheriff Ferrell. Down in the extreme southwest, right on 
the Mississippi-Louisiana border.
    Chairman Biden. Thank you.
    Sheriff Ferrell. And I invite you to visit.
    Chairman Biden. Well, my daughter is down in New Orleans, 
just across the river there. I may need your help. We may have 
to invade New Orleans before it is over.
    Sheriff Ferrell. I think we can take care of that, Senator.
    Chairman Biden. She is at Tulane University.
    Sheriff Ferrell. Good luck, sir. [Laughter.]
    Chairman Biden. Believe me, I understand. She is a junior. 
Thank God, she is doing well, but I don't think she is going to 
come home. Maybe she won't come home. She is going to be 
bringing home somebody who talks like you and I am going to 
have to learn to speak southern all over again. Jim Eastland 
taught me and I am trying to learn again.
    Sheriff Ferrell. Please don't take offense, sir, but if she 
finishes in New Orleans, she won't talk like she is from 
Delaware.
    Chairman Biden. That is exactly right. [Laughter.]
    Sheriff Ferrell. We are glad to have her in our area.
    Chairman Biden. So am I. I am glad to have her there.
    Sheriff Ferrell. I am here representing the sheriffs of the 
United States. I am the first vice president, and I will be 
sworn as president of the National Sheriffs' Association in 
June.
    The National Sheriffs' Association is surprised and deeply 
concerned about the proposal by OMB to eliminate the Office of 
Domestic Preparedness, ODP, at the U.S. Justice Department, and 
to shift these responsibilities to the Federal Emergency 
Management Agency, FEMA.
    This is a time when the American people need continuity and 
coordination, not the disruption of unnecessary reorganization. 
For this reason, I appear before you today to add the voice of 
the Nation's sheriffs to other law enforcement organizations 
that likewise oppose this OMB proposal. While we appreciate the 
efforts of OMB to consolidate functions and enhance efficiency, 
this proposal would unintentionally undermine the efforts of 
American law enforcement.
    I will submit for the record a formal resolution adopted by 
the National Sheriffs Association earlier this month in which 
we set forth the reasons for our opposition to the proposed 
reorganization.
    Let me explain the reasons for our opposition to the OMB 
proposal.
    Experience with counter-terrorism: Sheriffs have worked 
with the Department of Justice on funding for anti-crime 
efforts since the Safe Streets Crime Act of 1968. Over these 34 
years, the Department of Justice has established expertise that 
cannot be replicated by an agency that is new to law 
enforcement. Nothing more needs to be said other than it is 
apparent that there is no substitute for these 34 years of 
relationships and experience.
    Contradiction of the PATRIOT Act: The sheriffs of our 
Nation applaud your courage and leadership in passing the 
PATRIOT, but we are confused by the OMB proposal, since it 
seems to repeal sections of the PATRIOT Act even before some of 
those provisions have been implemented.
    For example, the OMB proposal seems to rewrite sections 
1005 and 1014, which direct the Attorney General, not FEMA, to 
make grants to sheriffs for first responders, terrorism 
prevention, and anti-terrorism training. Law enforcement 
responds to a deadly threat, not FEMA. Look at the record of 
terrorist attacks around the globe. Terrorists attack with 
automatic weapons, bombs, and often take hostages. Side by side 
with Federal law enforcement, we will face the terrorists most 
probably with deadly weapons.
    We will never ask nor can we expect our fire, EMS, or 
health personnel to face gunfire, explosives, or other deadly 
assaults. This is the job sheriffs and police, and it is ours 
alone. Once the threat has been addressed and public safety has 
been restored, only then is it possible to turn over the same 
to the FEMA agency. To do anything else would be contrary to a 
sheriff's oath of office and contrary to the laws of the 
States. To subordinate our crisis response to FEMA would 
compromise the statutory obligation of law enforcement 
officials to protect their communities.
    Mr. Chairman, the House Subcommittee on Crime said it best 
in recognizing that this is the reality of both policy and 
practice across the Nation. They said, ``The committee is 
concerned that FEMA is not the appropriate agency for these 
responsibilities. A terrorist attack is a criminal event, not a 
natural disaster.''
    The FEMA role is limited to consequences management. The 
prevention, detention, and apprehension of terrorists are law 
enforcement functions, and it is not appropriate for training 
and coordination to be assigned to the FEMA regime, where there 
are no such responsibilities. If there were to be another 
terrorist attack, responding to the immediate crisis would be 
law enforcement's responsibility. Sheriffs and chiefs of police 
are shocked that OMB would propose that FEMA should assume 
responsibility in these areas where there is neither experience 
nor the legal authority for them to even act.
    Perhaps more confusing is the contradiction of the January 
2001 United States Government Interagency Domestic Terrorism 
Concept of Operations Plan, known as the CONPLAN, which states 
that crisis management is predominantly a law enforcement 
function, and includes measures to identify, acquire, and plan 
the use of resources needed to anticipate and/or resolve a 
threat or act of terrorism.
    In a terrorist incident, a crisis management response may 
include traditional law enforcement missions, such as 
intelligence, surveillance, tactical operations, negotiations, 
forensics, investigations, as well as technical support 
missions such as agent identification, search, render safe 
procedures, transfer and disposal, and limited decontamination. 
In addition to traditional law enforcement missions, crisis 
management also includes assurance of public health and safety.
    The contradiction of the presidential decision directives: 
Presidential Decision Directives 39, 62 and 63 direct the 
Attorney General, not FEMA, to assume lead responsibility for 
the Federal Government. It is the United States Department of 
Justice, not FEMA, that serves as the central agency in a 
crisis. That is what our local laws now reflect and that is how 
our personnel have been trained.
    The Nation's sheriffs and police have established 
operational agreements with ODP and the FBI at the Department 
of Justice, and we should not be asked to scrap all of our 
policies, plans, and all of our agreements so that we can work 
under authority of an agency that has no law enforcement role.
    Disruption of the current programs threatens the public. 
Last year, the Senate increased funding for the ODP from $250 
million to $650 million, and we are now engaged in the planning 
for the allocation of these funds to law enforcement. Just as 
we are launching these new programs, OMB would have us 
terminate the effort and move everything over to FEMA. The 
disruption that such a shift would cause is nothing less than 
catastrophic at a time when the safety of the American people 
is at risk.
    As elected sheriffs sworn to protect the public, we cannot 
support a recommendation that may cause enormous disruption and 
a potential interruption during this period of unprecedented 
threats to public safety in America. The Department of Justice 
should be commended. The National Sheriffs' Association 
believes that the Congress should commend the Attorney General, 
the FBI, and the ODP for a job well done, and not consider the 
transfer of their duties to agencies that lack the experience, 
training, and authority to get the job done.
    As directed by Congress, the Department of Justice has 
worked with all 50 States on preparedness plans, and I am 
advised that 44 have been received. Relying upon decades of 
experience with review and approval of such State plans, ODP 
has already approved 40 of these State strategy documents.
    I asked the Department of Justice to provide me with a 
listing of what they have done to assist law enforcement and 
first responders, and I am pleased to submit these figures for 
the record, which is part of the testimony.
    Chairman Biden. Without objection, they will be submitted.
    Sheriff Ferrell. At this time of national crisis, sheriffs 
want to support the efforts of the President and Governor 
Ridge. However, we cannot support the OMB recommendation to 
remove the Office of Domestic Preparedness from the United 
States Department of Justice and transfer this function to 
FEMA.
    While this plan may appear to serve the interests of 
efficiency, it fails to recognize the reality of law 
enforcement responsibilities at the time of a terrorist attack. 
This sort of force consolidation can only lead to confusion, 
and that is not what our Nation needs right now.
    Mr. Chairman, thank you for the opportunity to appear 
before you and I am prepared to answer the committee's 
questions at this time on this issue.
    [The prepared statement of Sheriff Ferrell follows:]

  Testimony of Sheriff Tommy Ferrell, First Vice President, National 
                         Sheriffs' Association

                              introduction
    Mr. Chairman, I am Sheriff Tommy Ferrell from Adams County, 
Mississippi and I appear before you as First Vice President of the 
National Sheriffs' Association. I will take office as President in 
June.
    The National Sheriffs' Association is surprised and deeply 
concerned about the proposal by OMB to eliminate the Office of Domestic 
Preparedness (ODP) at the U.S. Department of Justice, and to shift 
these responsibilities to the Federal Emergency Management Agency 
(FEMA).
    This is a time when the American people need continuity and 
coordination, not the disruption of unnecessary reorganzation. For this 
reason, I appear before you today to add the voice of the Nation's 
Sheriffs to other law enforcement organizations that likewise oppose 
this OMB proposal. While we appreciate the efforts to OMB to 
consolidate functions and enhance efficiency, this proposal would 
unintentionally undermine the efforts of American law enforcement.
    I will submit for the record a formal resolution adopted by the 
National Sheriffs' Association earlier this month, in which we set 
forth the reasons for our opposition to the proposed reorganization.
    Let me explain each of the reasons for our opposition to the OMB 
proposal:
    Experience With Counterterrorism: Sheriffs have worked with the 
Department of Justice on funding for anti-crime efforts since the Safe 
Streets Act of 1968. Over these 34 years, the Department of Justice has 
established expertise that cannot be replicated by an agency that is 
new to law enforcement. Nothing more need be said here, as it is 
apparent that there is no substitute for these 34 years of 
relationships and experience.
    Contradiction of the Patriot Act: The Sheriffs of our Nation 
applaud your courage and leadership in passing the Patriot Act. But we 
are confused by the OMB proposal, since it seems to repeal sections of 
the Patriot Act even before some of those provisions have been 
implemented. For example, the OMB proposal seems to re-write Sections 
1005 and 1014, which direct the Attorney General, not FEMA, to make 
grants to Sheriffs for first responders, terrorism prevention and anti-
terrorism training.
    Law Enforcement Responds to a Deadly Threat, Not FEMA Agencies: 
Look at the record of terrorist attacks around the globe. Terrorists 
attack with automatic weapons, bombs, and often take hostages. Side-by-
side with Federal law enforcement, we will face the terrorists, most 
probably with deadly weapons. We will never ask nor can we expect our 
Fire, EMS or Health personnel to face gunfire, explosives or other 
deadly assaults. That is the job of sheriffs and police, and it is ours 
alone. Once the threat has been addressed and public safety has been 
restored, only then it is possible to turn over the scene to the FEMA 
agencies. To do anything else would be contrary to a Sheriff's oath of 
office and contrary to the laws of the States. To subordinate our 
crisis response to FEMA would compromise the statutory obligation of 
law enforcement officials to protect their communities. Mr. Chairman, 
the House Subcommittee on Crime said it best in recognizing that this 
is the realty of both policy and practices across the Nation. They said 
that, ``The Committee is concerned that FEMA is not the appropriate 
agency for these responsibilities. A terrorist attack is a criminal 
event, not a natural disaster.'' \1\
---------------------------------------------------------------------------
    \1\ House Committee on the Judiciary, Subcommittee on Crime. 
``Amended Views and Estimates''
---------------------------------------------------------------------------
    FEMA Role is Limited to Consequences Management: The prevention, 
detection and apprehension of terrorists are law enforcement functions, 
and it is not appropriate for training and coordination to be assigned 
to the FEMA regime, where there are no such responsibilities. If there 
were to be another terrorist attack, responding to the immediate crisis 
would be a law enforcement responsibility. Sheriffs and Chiefs of 
Police are shocked that OMB would propose that FEMA should assume 
responsibility in these areas, where there is neither experience nor 
legal authority to act. Perhaps most confusing is the contradiction of 
the January 2001 United States Government Interagency Domestic 
Terrorism Concept of Operations Plan, known as the CONPLAN, which 
states: ``Crisis management is predominantly a law enforcement function 
and includes measures to identify, acquire, and plan the use of 
resources needed to anticipate, prevent, and/or resolve a threat or act 
of terrorism. In a terrorist incident, a crisis management response may 
include traditional law enforcement missions, such as intelligence, 
surveillance, tactical operations, negotiations, forensics, and 
investigations, as well as technical support missions, such as agent 
identification, search, render safe procedures, transfer and disposal, 
and limited decontamination. In addition to the traditional law 
enforcement missions, crisis management also includes assurance of 
public health and safety.'' \2\
---------------------------------------------------------------------------
    \2\ January 2001 United States Government Interagency Domestic 
Terrorism Concept of Operations Plan
---------------------------------------------------------------------------
    Contradiction of Presidential Decision Directives: Presidential 
Decision Directives 39, 62 and 63 direct the Attorney General, not 
FEMA, to assume lead responsibility for the Federal Government. It is 
the U.S. Department of Justice, and not FEMA, that serves as the 
central agency in a crisis. This is what our local laws now reflect and 
this is how our personnel have been trained. The Nation's Sheriffs and 
Police have established operational agreements with ODP and the FBI at 
the Department of Justice, and we should not be asked to scrap all of 
our policies, plans, and agreements so that we can work under the 
authority of an agency that has no law enforcement role.
    Disruption of Current Programs Threatens the Public: Last year, the 
House increased the funding for the ODP from $250 Million to $650 
Million, and we are now engaged in the planning for allocation of these 
funds to law enforcement. Just as we are launching these new programs, 
OMB would have us terminate the effort and move everything over to 
FEMA. The disruption that such a shift would cause is nothing less than 
catastrophic at a time when the safety of the American people is at 
risk. As elected Sheriffs sworn to protect the public, we cannot 
support a recommendation that may cause enormous disruption and a 
potential interruption during this period of unprecedented threats to 
public safety in America.
    Department of Justice Should be Commended: The National Sheriffs' 
Association believes that Congress should commend the Attorney General, 
the FBI and ODP for a job well done, and not consider the transfer of 
their duties to agencies that lack the experience, training and 
authority to get the job done. As directed by Congress, the Department 
of Justice has worked with all 50 states on preparedness plans, and I 
am advised that 44 have been received. Relying upon decades of 
experience with review and approval of such State plans, ODP has 
already approved 40 of these State Strategy documents. I asked the 
Department of Justice to provide me with a listing of what they have 
done to assist law enforcement and first responders, and I am pleased 
to submit these figures for the record.
Equipment
    ODP has made $607.04 million dollars available to state and local 
jurisdictions for the procurement of specialized WMD equipment. ODP 
developed a Pre-positioned Equipment Program (PEP) to strategically 
locate emergency response equipment around the nation for response to 
terrorist incidents.
Training
    From FY97 through FY01, ODP has trained over 96,600 state and local 
emergency responders from more than 1,548 different jurisdictions.
    A total of 33 training courses are offered through ODP including a 
range of specialized courses, from basic awareness to discipline-
specific advanced level training and directed toward a variety of 
disciplines including fire, hazardous materials, law enforcement, 
emergency medical services, public health, emergency management, and 
public works.
    At its Center for Domestic Preparedness (CDP) in Anniston, Alabama, 
ODP operates the nation's only state and local live agent training 
facility, where emergency responders can test their skills in a live 
contaminated environment.
    Working in partnership with the Combating Terrorism Technology 
Support Office/Technical Support Working Group and the FEMA Emergency 
Education Network (EENET), ODP provides regular awareness level 
training to the emergency response community through two satellite 
broadcast programs: Consequence Management News, Equipment and Training 
(CoMNET) and Live Response.
Exercises
    In May 2000, ODP National Exercise Program conducted the Top 
Officials (TOPOFF) exercise, the largest Federal, state and local full-
scale exercise that simulated chemical, biological and radiological 
attacks around the country. ODP has begun planning for the 
Congressional mandated TOPOFF II Full-Scale exercise, to be conducted 
in the spring of 2003.
    A total of 93 exercises have been conducted by ODP to date. It is 
estimated that ODP will complete 220 exercises in FY02; including the 
NLDDP Program Exercises.
    Working with the Department of Energy, ODP has established a Center 
for Exercise Excellence at the Nevada Test Site (NTS), creating a 
national WMD exercise-training program, which assists state and local 
emergency response agencies with the planning and conduct of domestic 
preparedness exercises.
Technical assistance
    ODP has reconstituted the Domestic Preparedness Help line, a non-
emergency, toll-free, 1-800 number resource available for use by state 
and local emergency responders. The Help line provides general 
information on the characteristics and control of WMD materials, 
technical information on response equipment, mitigation techniques, ODP 
programs and services, and available Federal assets.
    Partnering with the U.S. Army's Pine Bluff Arsenal, ODP offers 
mobile technical assistance teams that provide on-site assistance and 
training to ODP grantees with the calibration, operation and 
maintenance of WMD response equipment.
Nunn-Lugar-Domenici Domestic Preparedness Program
    ODP is responsible for completing the Nunn-Lugar-Domenici Domestic 
Preparedness Program that was transferred from DoD, effective December 
21, 2000. As of January 31, 2002, ODP has completed:
          22 Biological Weapons Tabletop Exercises (BW TTX);
          6 Chemical Weapons Full Scale Exercises (CWFSE);
          All NLDDP final 15 cities Initial Meetings;
          13 of 15 Senior Officials Workshops for the remaining cities;
          12 of 15 Program Implementation Meetings for NLD cities 106-
        120; and
          36 training courses for 8 of the final 15 NLD cities.
                               conclusion
    At this time of national crisis, Sheriffs want to support the 
efforts of the President and Governor Ridge. However, we cannot support 
the OMB recommendation to remove the Office of Domestic Preparedness 
from the U.S. Department of Justice and transfer this function to FEMA. 
While this plan may appear to serve the interests of efficiency, it 
fails to recognize the reality of law enforcement responsibilities at 
the time of a terrorist attack. This sort of forced consolidation can 
only lead to confusion, and that is not what our Nation needs right 
now.
    Mr. Chairman, thank you for the opportunity to appear before you 
and I am prepared to answer the Committee's questions on this issue.

    Chairman Biden. Thank you very much, Sheriff, for a very 
thorough statement.
    Last but not least, Mr. Muhlhausen, thank you very much for 
being here again. We look forward to your testimony.

 STATEMENT OF DAVID B. MUHLHAUSEN, POLICY ANALYST, CENTER FOR 
       DATA ANALYSIS, HERITAGE FOUNDATION, WASHINGTON, DC

    Mr. Muhlhausen. Thank you, Chairman Biden.
    Mr. Chairman, my name is David Muhlhausen. I am a policy 
analyst at the Heritage Foundation, specializing in crime 
policy and program valuation. In beginning my testimony, I must 
stress that the views I express are entirely my own and should 
not be construed as representing any official position of the 
Heritage Foundation. With that understanding, I am honored to 
be asked by the Subcommittee on Crime and Drugs to testify 
today on the needs of local law enforcement for homeland 
defense.
    The September 11 terrorist attacks at the World Trade 
Center and the Pentagon reshaped Federal priorities to efforts 
that strengthen the Government's ability to protect Americans 
from terrorism. To improve anti-terrorism programs, Congress 
has shifted dollars away from wasteful, unproven or 
demonstrably ineffective programs.
    For fiscal year 2003, the Bush administration has proposed 
three major changes to current assistance to local law 
enforcement. First, the administration plans to eliminate COPS 
hiring grants. This proposal is a good idea. Even with the best 
of intentions, COPS has not been a successful program when its 
performance has been measured by rigorous standards of social 
science research.
    The Heritage Foundation's Center for Data Analysis 
conducted an independent analysis of the effectiveness of the 
COPS program. After accounting for local law enforcement 
expenditures and other socio-economic factors on a yearly 
basis, the analysis found that COPS hiring and redeployment 
grants have no statistically significant effect on reducing 
violent crime rates.
    The administration's second proposal intends to consolidate 
local law enforcement block grants and Byrne formula grants 
into a single $800 million initiative called the Justice 
Assistance Grants Program. The administration aims to implement 
the Justice Assistance Grants Program with a greater emphasis 
on measuring the performance of the program. The consolidation 
of duplicate programs and the plan to measure performance are 
also sound public policies.
    A third proposal from the administration is a request for 
$3.5 billion for the Federal Emergency Management Agency to 
improve preparedness of first responders when terrorist attacks 
occur. Many members of the local law enforcement community are 
concerned that FEMA normally responds only after a destructive 
act has occurred.
    Currently, FEMA is not an agency well-suited to provide 
Federal assistance to law enforcement to protect against 
terrorism. Funding for law enforcement needs to be proactive, 
as well as reactive. Not only will law enforcement be called 
upon to respond to terrorist acts, but the police are also 
expected to uncover and stop terrorist plots.
    For this reason, Congress has set aside a portion of the 
$3.5 billion in FEMA grants for funding to help local law 
enforcement acquire the necessary skills and tools to prevent 
and respond to terrorism. These grants should be administered 
by the Department of Justice.
    Funding could be used to help local law enforcement and the 
Federal Government develop a reciprocal relationship to share 
intelligence on suspected terrorist activities. In addition, 
the funding could assist local law enforcement agencies to 
conduct threat assessments and implement strategies to 
safeguard vulnerable targets.
    From a policy standpoint, the administration's position on 
COPS, LLEBG, and Byrne grants is found. However, using FEMA to 
administer what amounts to local law enforcement grants is not. 
Congress should seriously reconsider the administration's plan 
to administer anti-terrorism grants to law enforcement through 
FEMA. Given the Nation's continuing vulnerability to future 
terrorist attacks, the Federal Government has the 
responsibility to assist local law enforcement in their efforts 
to detect, prevent, and respond to terrorism. A far better 
policy would be for Congress to transfer a portion of the 
administration's FEMA funding request to the Department of 
Justice to assist local law enforcement in the prevention of 
terrorism.
    Senator I have submitted a copy of my written testimony to 
the subcommittee. Thank you.
    [The prepared statement of Mr. Muhlhausen follows:]

   Statement of David B. Muhlhausen, Policy Analyst, Center for Data 
                   Analysis, the Heritage Foundation

    Mr. Chairman, my name is David Muhlhausen. I am a policy analyst at 
the Heritage Foundation specializing in crime policy and program 
evaluation. In beginning my testimony I must emphasize that the views I 
express are entirely my own, and should not be construed as 
representing any official position of The Heritage Foundation. With 
that understanding, I am honored to be asked by the Subcommittee on 
Crime and Drugs, to testify today on assessing the needs of local law 
enforcement for homeland defense.
    The September 11 terrorist attacks on the World Trade Center and 
the Pentagon reshaped federal priorities to efforts that strengthen the 
government's ability to protect Americans from terrorism. To improve 
anti-terrorism programs, the Administration and Congress first should 
shift dollars away from wasteful, unproven, or demonstrably ineffective 
programs.
    Second, Congress should recognize many crime programs deal with 
problems or functions that lie within the expertise, the jurisdiction, 
and the constitutional responsibilities of state and local governments. 
Therefore, these problems should be addressed by state and local 
officials.
                the bush administration budget proposal
    For fiscal year 2003, the Bush Administration has proposed three 
major changes to the federal government's funding for state and local 
law enforcement. First, the Administration plans to eliminate Community 
Oriented Policing Services (COPS) grants for the hiring of additional 
police officers. This proposed is a good idea. Even with the best of 
intentions, COPS has not been a successful program when its performance 
has been measured by rigorous standards of social science research. 
COPS was intended to reduce crime by putting 100,000 additional 
officers on America's streets. Research by The Heritage Foundation, 
U.S. Department of Justice, and the General Accounting Office have all 
found that COPS failed to come close to the 100,000 additional officer 
goal. Despite funding of $8 billion between fiscal years 1994 to 2000, 
a 2000 report titled National Evaluation of the COPS Program, by the 
DOJ, estimates that the number of officers that COPS placed on the 
streets would, at most, peak at around 57,000 by 2001.
    The Heritage Foundation Center for Data Analysis conducted an 
independent analysis of the effectiveness of the COPS program in 2001. 
After accounting for state and local law enforcement expenditures and 
other socioeconomic factors on a yearly basis, the analysis found that 
COPS grants for the hiring of additional police officers as well as 
grants for redeployment--the Making Officer Redeployment Effective 
(MORE) grants--have no statistically significant effect on reducing the 
rates of violent crime.
    The Administration's second proposal intends to consolidate Local 
Law Enforcement Block Grants (LLEBG) and Byrne formula grants into one 
$800 million program called the Justice Assistance Grants (JAG). In the 
past, these programs have duplicated each other. According to the 
Office of Management and Budget, there is virtually no evidence that 
these grants have been effective in reducing crime and they lack 
adequate measures of performance. The Administration aims to implement 
the JAG program with a greater emphasis on measuring performance. The 
consolidation of these duplicative grants and the plan to measure 
performance are also sound public policies.
    A third proposal from the Administration is a request for $3.5 
billion for the Federal Emergency Management Agency (FEMA) to improve 
the preparedness of state and local first responders (police, firemen, 
and other emergency personnel) to respond to terrorism. These grants 
would fund programs that make responses to terrorist acts of mass 
destruction more efficient and coordinated. The funds will be used to 
improve communication, training, and technology.
    Many members of the law enforcement community are concerned that 
FEMA normally responds only after a destructive act has occurred. 
Currently, FEMA is not an agency well suited to provide federal 
assistance to law enforcement for protecting against terrorism. Funding 
for law enforcement needs to be proactive, as well as reactive. Not 
only will law enforcement be called upon to respond to terrorist acts, 
but the police are also expected to uncover and stop terrorist plots. 
As Sheriff John Cary Bittick, President of the National Sheriffs' 
Association, recently testified before the U.S. House of 
Representatives Committee on the Judiciary, Subcommittee on Crime, ``We 
will never ask nor can we expect our Fire, EMS, or Health personnel to 
face gunfire, explosives, or other deadly assaults. That is the job of 
police and sheriffs, and it is ours alone.''
    This is a sound observation. It is the responsibility of law 
enforcement to detect, prevent, and respond to terrorism. For this 
reason, Congress should set aside a portion of the $3.5 billion in FEMA 
grants to help state and local law enforcement acquire the necessary 
skills and tools to prevent and respond to terrorism. The Department of 
Justice (DOJ) should administer these grants for multiple purposes. 
Funding could be used to help local law enforcement and the federal 
government develop a reciprocal relationship to share intelligence on 
suspected terrorist activities. Training to give local law enforcement 
the tools to identify and stop terrorist activities could be funded by 
the grants. In addition, the funding could assist local law enforcement 
conduct threat assessments and implement strategies to safeguard 
vulnerable targets.
    In any case, to enhance the value of every dollar spent on behalf 
of the taxpayers, the Administration should continue to review and 
reduce funding for ineffective grant programs, and continue the 
consolidation of duplicative programs into single grant programs.
                        what congress should do
    As a general policy, Congress should always end funding for 
unproductive programs and consolidate duplicative programs. When viewed 
from this policy standpoint, the Administration's position on COPS, 
LLEBG, and Byrne grants is sound. However, using FEMA to administer 
what amounts to law enforcement grants is not. Congress should 
seriously reconsider the Administration's plan to administer anti-
terrorism grants to law enforcement through FEMA. Given the nation's 
continuing susceptibility to future terrorist attacks, the federal 
government has the responsibility to assist state and local law 
enforcement in their efforts to detect, prevent, and respond to 
terrorism. FEMA's traditionally reactive approach to disasters is not 
well suited for the needs of law enforcement in responding to 
prospective terrorist threats. A far better policy would be for 
Congress to transfer a portion of the Administration's FEMA funding 
request to DOJ. Congress should keep in mind during these budget 
deliberations the importance of reviewing and reorienting its 
priorities. Especially after pouring billions of dollars in unproven 
programs through the years.
    The Heritage Foundation is a public policy, research, and 
educational organization operating under Section 501(C)(3). It is 
privately supported, and receives no funds from any government at any 
level, nor does it perform any government or other contract work.
    The Heritage Foundation is the most broadly supported think tank in 
the United States. During 2001, it had more than 200,000 individual, 
foundation, and corporate supporters representing every state in the 
U.S. Its 2001 contributions came from the following sources:

                                                                 Percent
Individuals...................................................     60.93
Foundations...................................................     27.02
Corporations..................................................      7.61
Investment Income.............................................      1.60
Publication Sales and Other...................................      2.84

    The top five corporate givers provided The Heritage Foundation with 
less than 3.5% of its 2001 income. The Heritage Foundation's books are 
audited annually by the national accounting firm of Deloitte & Touche. 
A list of major donors is available from The Heritage Foundation upon 
request.
    Members of The Heritage Foundation staff testify as individuals 
discussing their own independent research. The views expressed are 
their own, and do not reflect an institutional position for The 
Heritage Foundation or its board of trustees.

    Chairman Biden. Well, thank you very much, David.
    I failed to mention earlier that Senator Grassley, who very 
much wanted to be here, is a member of the Budget Committee. As 
you have been reading in the newspaper, there is one heck of a 
hullabaloo going on in the Budget Committee, trying to figure 
out how we put 10 pounds in a 5-pound bag here and what 
priorities we set.
    I am almost positive he would rather be here right now than 
there, but he is on that committee and it looks like he is not 
going to be able to get away. They are actually marking up the 
budget resolution right now. That is Senate jargon for meaning 
they are deciding what they are going to submit to the United 
States Senate, to the floor. So I apologize, and particularly 
to you, David, since he asked very much that you be here as one 
of the witnesses.
    There is going to be a vote starting fairly soon. I know 
that a couple of you have time constraints, so maybe I will ask 
you questions first, those whom I know have a time constraint. 
I am going to wait until about three minutes left in this--you 
know, we are like Pavlov's dogs; when those lights go on and 
those buzzers happen, we have to move. I will need about three 
minutes to get to the floor. That will finish the one vote. I 
will vote for the second one and come back. So the bottom line 
is I will be gone probably about 12 minutes.
    For those of you whom I haven't had a chance to ask 
questions in the next 12 minutes could hang around a little 
bit--and I will understand if you can't because I have already 
trespassed on your time and some of you have come a long 
distance.
    Chief, I know your presence is required by the mayor at six 
o'clock tonight back in Wilmington, so maybe I can begin with 
you. Without giving me any number--if you have a number, I 
would appreciate it, but has your requirement to have more cops 
on the street, if this is the case, increased since 9/11, since 
the terrorist attacks?
    I mean, what happens when nationally the United States 
Government, through initially the Attorney General--now, it 
will be through Governor Ridge--says that we have information 
believing there may be a terrorist attack on the United States, 
without any specificity as to where it may be? What happens to 
your police department when those--and they have happened, I 
guess, three or four times since then--what happens?
    Chief Szczerba. We are about to the highest heightened 
state of alert that we can be, and I don't think the city of 
Wilmington is any different from any other city, small or 
large, throughout the country.
    Chairman Biden. You have a port, correct, that you have to 
deal with?
    Chief Szczerba. That is correct. We have a port. We have, I 
believe, the sixth busiest Amtrak station in the country, which 
you are well familiar with. We have other vulnerable sites that 
we have to monitor since then. And it is not only in staffing, 
but it has caused us to now have cameras set up and monitoring 
some areas which we never monitored before.
    Chairman Biden. Has that put additional strains on your 
budget when you go to the city council? I am not trying to lead 
you. I give you my word, I am trying to figure this out.
    Do you need more money to do the same job now because you 
have increased responsibilities as a practical matter, or can 
you get by on the same amount of money you have had if you are 
just going to do the same job you did last year?
    Chief Szczerba. We could not get by on the same amount 
because we are going to fall behind. We have to address the 
homeland security issues, but like I stated in my prepared 
remarks, we also have the terrorists that are on our street 
corners on a daily basis that we also have to deal with.
    Chairman Biden. One last question for you, Chief. You have 
been on the force a while. And maybe you can't answer this. It 
may be an unfair question, but I am going to ask it to you 
anyway and if you don't want to answer it, you don't have to.
    Do you have any indication from the city council or the 
mayor's office for the upcoming budget that you might have to 
trim your budget if there is not a continuation of the COPS 
program and the same amount of money for the block grants and 
the Byrne grants?
    Maybe you can tell me about the budget prospects, as you 
see them. Assuming the President's budget goes through, what do 
you envision? What kind of budget are you going to have to 
submit to the mayor?
    Chief Szczerba. A strained budget. Not releasing any 
information because the mayor will be making his budget address 
tonight, but we would be facing not cuts, but it is a cut in 
the sense that in this next fiscal year I had anticipated 
having an academy class. That may be frozen right now.
    Chairman Biden. By academy class you mean continuing to add 
police to your department?
    Chief Szczerba. That is correct, to keep us up to our 
authorized strength, which is 289.
    Chairman Biden. Because you have retirees?
    Chief Szczerba. Yes, and by my request we would be adding 7 
to that 289. But I know that won't happen, so I have to strike 
a mid-ground here to where I can maintain what I have. And to 
face a freeze, I am afraid that we would be taking steps back 
to what I demonstrated we faced in 1996 and I do not want to 
see that happen.
    Chairman Biden. Before you have to leave to catch the four 
o'clock train, I want to ask this question to everyone, as 
well. Are any of you opposing spending more money just in the 
aggregate to deal with helping first responders in terms of 
firefighters, ambulances and the like?
    You are not arguing that they shouldn't get more help, are 
you? Can you speak to that? Do you think the fire department, 
for example, in the city of Wilmington needs more assistance?
    Chief Szczerba. Yes, I do.
    Chairman Biden. Gentlemen, do any of you want to speak to 
that? Mr. Muhlhausen?
    Mr. Muhlhausen. Chairman Biden, I think that, in general, 
to prepare for terrorist attacks and the consequences, there is 
a Federal role in this area for first responders. So I don't 
think it is a debate about cutting funding for first 
responders, but I think that law enforcement plays a unique 
role. Not only do they have to respond after something has 
occurred, but they are also called in to prevent things, to 
stop things from happening. So FEMA is not the agency that is 
well-suited for that.
    Chairman Biden. I will ask the mayors because you have the 
difficult responsibility of both of those departments. Assuming 
it wasn't taken out of your police departments, I assume you 
would welcome money for the training of and the equipping of 
your fire departments, your ambulances, and the EMS teams that 
go in. Is that correct?
    Mayor Hays. Senator, because of the downturn in the 
economy, I know my budget is flat this year. I wasn't able to 
support any raises at this point for any of our municipal 
employees. As such, what I am having to do is when I have the 
$188,000 that is being taken away because of the housing 
authority grant, I am having to make those kinds of choices and 
reallocate forces. I am having to acquire equipment because of 
9/11 that I didn't have to have. I am having to prioritize some 
of the directions that some of my officers are having to go.
    I have got the largest arena in central Arkansas, and as 
such we are obviously concerned about the gathering of 18,000 
people at one time. My city has a hydroelectric facility, and 
again we are concerned about any potential terrorist act on 
that.
    The one word that I have been able to use at least at this 
point in terms of responding to those needs is overtime, and 
that has had a severe impact on my budget. I might add that 
when I took office in 1989, the police department's budget in 
North Little Rock was a little over $6 million. Right now, it 
is a little over $16 million, and that is a 175-percent 
increase.
    We have been fighting crime for those 13 years and have 
made successes with the partnerships that we have had with 
Washington. We are about at the end of our rope when it comes 
to additional resources. The COPS program, the grants and the 
partnerships we have had with Washington help us go forward, 
but they are not going forward at the pace that we need to. We 
started with 24 sworn officers through the COPS program. Right 
now, 17 of those 24 are funded by the city.
    Chairman Biden. You picked them up, in other words.
    Mayor Hays. We picked them up.
    Chairman Biden. That is how the program was designed to 
work. The first three years, basically we would do it. The last 
two years, you have got to commit to keep them two years. Then 
after that, you all are in a position of whether you can keep 
them. You are entitled, under the deal made, to let them go and 
not lose additional help from the Federal Government, because 
that was the deal. You didn't have to keep them forever. We 
hoped you would.
    Mayor Hood, what kind of strain is it going to place on 
you?
    Mayor Hood. Mr. Chairman, I think related to what just 
stated, last week I shared with you that the last thing I am 
going to do is take police officers off the street. It is very 
important, when we have made that commitment to our citizens, 
that we make a commitment when we took those grant dollars up 
front to sustain them over a period of time. That is my 
philosophy.
    I work off of a public safety master plan and a multi-year 
cycle, and this year I have been able to, since 9/11, advance 
an additional $1.5 million for additional public safety 
personnel needs. I project that with my new budget which I 
introduced to the council this summer that there will be an 
additional $2.5 million need for public safety personnel. That 
is above and beyond what I would have normally advanced through 
my public safety master planning.
    We are also responsible for and have a unit of our police 
personnel at our international airport. Of course, there are 
lots of fluctuations going on right now with the federalization 
of certain employees at certain checkpoints, and when the 
National Guard leaves how long they will or won't stay. So that 
is going to be an issue that comes up as well.
    Chairman Biden. If they leave, is the airport physically 
within your jurisdiction?
    Mayor Hood. Yes, it is, but we have adequate personnel at 
this point in time.
    Chairman Biden. I know you do. I just want to make sure I 
understand.
    Mayor Hood. We may need to add more there, although we are 
reimbursed for that through our aviation authority.
    As far as some of the things that we have been doing since 
9/11, if there is an additional need that arises in the 
community, certainly you can kick in mutual aid agreements. You 
work at full-shift configurations a lot of time or go to the 
overtime situation.
    Chairman Biden. But what do you have to cut, Madam Mayor? I 
would like to think if I were a mayor--and I don't like to 
think about being a mayor; it is a real job, it is a tough job.
    But all kidding aside, you have made the decision I hope I 
would make, which is the last thing I am going to cut is law 
enforcement.
    Mayor Hood. Right.
    Chairman Biden. Are you raising taxes?
    Mayor Hood. No. I actually lowered taxes.
    Chairman Biden. Well, what gives?
    Mayor Hood. Well, I am in the fortunate situation right now 
that I have additional tax revenues coming in because I have 
grown my city through annexation and through population 
increases.
    Chairman Biden. I see.
    Mayor Hood. But at the same time, I haven't determined yet 
if there is anything that has to be cut back.
    Chairman Biden. I see.
    Mayor Hood. I think what you do is you look for a new 
business model. You look for more partnerships with the private 
sector and the non-profit sector. That is a new way of doing 
business.
    Chairman Biden. Well, can I ask you a question? You 
represent, representing the League here, how many thousand 
mayors and municipalities?
    Mayor Hood. There are about 135,000 members that we have in 
the National League of Cities.
    Chairman Biden. Now, I know you can speak for----
    Mayor Hood. No, but many of them are in situations where 
they are going to have to make very difficult choices. And 
while I can't give you specific examples from city to city and 
mayor to mayor, I know that that is something that they have 
been concerned about, that they are going to have to make some 
of those tough choices.
    Chairman Biden. From everything I have heard--and I am 
going to get in trouble, me being a Democrat and you being a 
Republican, but you have been a heck of a mayor. I am not being 
solicitous. Your reputation procedes you here, so I am not 
being solicitous.
    If you had to guess, and maybe you don't want to, if these 
cuts are sustained and for the next three years we don't have 
any of this COPS money and we go from, on the COPS side of the 
equation, COPS and Byrne, et cetera--the Justice Department 
right now has disbursed roughly $3.5 billion to localities for 
law enforcement-related activities over the last year. But it 
is being cut to 2, so there is about a $1.5 billion cut. These 
are rough numbers.
    Assuming that kind of cut is sustained for the next several 
years, would you envision there being the same number of local 
law enforcement officers represented by your constituency, 
meaning the League of Cities, or is it likely that that number 
will decrease?
    Mayor Hood. I think by just some of the examples I have 
shared in my testimony and from other conversations and 
discussions I have had with my colleagues that many of them 
feel that they would have to not only make some difficult 
decisions as far as other vital services having to be cut back, 
but also perhaps the situation, yes, of having to pull 
officers.
    Chairman Biden. The truth of the matter is----
    Mayor Hood. And especially small cities.
    Chairman Biden. Yes, and that is where the rubber hits the 
road.
    You are not a small city, Pat, but you are not the size of 
Orlando. What is your population again?
    Mayor Hays. Sixty thousand, Senator.
    Chairman Biden. Sixty thousand.
    Mayor Hays. Yes. What you would probably find me doing is I 
am not going to get in a position where I have to cut officers, 
and so I am going to do everything I can. Now, I may be in a 
situation where I have to look to take some of my school 
resource officers out of the campus. The city pays 100 percent 
of their salary and I may have to take some and reallocate them 
from some of the neighborhood programs that we have in terms of 
how we have dispensed our police department in four different 
areas in our city.
    I am going to meet the need. I am not going to cut my 
police department, but I may have to reallocate it, and that 
will cause, in my opinion, long-term damage to the quality of 
life in my community.
    Chairman Biden. I have about 60 seconds to get over there 
and vote. I do want to raise some questions of you, Sheriff, if 
I may, as well. And, Mr. Muhlhausen, I want to talk to you 
about this notion of devolution of government and the 
responsibility of the Federal Government, to the extent it 
exists, and where and why. And, Bill, I would like to ask you 
some questions about the additional responsibilities you have.
    Again, I do not in any way question the good intentions of 
the administration in making this shift, but I do question the 
judgment. And I wonder if you all are willing to give me some 
insight, to the extent that you have divined it, as to why we 
are moving this way. I mean, what do we expect to have happen?
    Chief, with all due respect, I would like you to leave 
because the mayor will be very upset with me if his chief is 
not there when he submits his budget. To walk to the train 
station it will take you about 11 minutes. You have 20. Not 
that I have any authority over you, but I would like you to go 
because the mayor is a close friend of mine and I don't want to 
get in trouble with the mayor. But I thank you for coming down 
here. Thank you very much.
    Chief Szczerba. Thank you, Senator.
    Chairman Biden. With your permission, if you are willing to 
wait about 12 minutes, I am going to recess the hearing, to be 
absolutely certain for 15 minutes. We will reconvene here at 
five minutes of four, and I promise I will not keep you very 
long after that, if you are willing to wait. Thank you all very 
much.
    We will recess for 15 minutes.
    [The subcommittee stood in recess from 3:40 p.m. to 4:14 
p.m.]
    Chairman Biden. We will come back to order. I apologize. 
There was more than one vote.
    At any rate, I understand both of our mayors had to leave 
and I will submit several questions to them in writing.
    I would ask unanimous consent that additional statements be 
put in the record. Senator Grassley's statement, Senator 
Kohl's, and the Police Executive Research Forum will be entered 
into the record at this time.
    [The prepared statement of Senator Grassley follows:]

 Statement of Senator Charles E. Grassley, Homeland Defense: Assessing 
                      Local Law Enforcement Needs

    Mr. Chairman, thank you for holding this hearing on how the 
Administration's budget will address the needs of local law 
enforcement. This hearing is particularly timely in light of the 
homeland defense mission that local law enforcement is now faced with. 
Of course, local law enforcement has always been the first line of 
defense against any crime, and as September 11th demonstrated, they are 
also the first to rush into harms way.
    Because of the increased focus on homeland security, I conducted 
two working meetings last November in Des Moines and Cedar Rapids. I 
met with Iowa first responders to discuss their preparedness for 
responding to terrorists incidents and to learn how the federal 
government could better meet first responder needs. In these meetings, 
the various police offices present told me that to be fully prepared to 
respond to a terrorist incident, they would have to have additional 
funds for technology, communications equipment, and training.
    They also informed me that the complex network of agencies offering 
resources, each with duplicative training and funding missions, has 
created a great deal of confusion for those trying to obtain 
assistance. These law enforcement and other first responders asked that 
the federal government provide a streamlined and simple grant process, 
and that there be more flexibility in how they can spend law 
enforcement funding. To give them what they need, the various local law 
enforcement funding programs have to be adjusted. The President's 
budget purports to do this by merging funding programs that have 
duplicative functions, and cutting or eliminating those programs that 
are inefficient or ineffective.
    We're here today to discuss what impact the proposed cuts and 
mergers in the President's budget will have on local law enforcement 
funding. As many of you may know, I'm a strong proponent of good 
government, regardless of party politics. As such, I generally favor 
combining grant programs that administer the same type of grants. In 
addition to ending duplicative funding, I also support the elimination 
of funding programs that have already accomplished their goals, or on 
the other hand, are so inefficient or ineffective that they will never 
accomplish their goals. I also support the transferring of grant 
administration responsibilities from one office or agency to another--
but only when it makes sense to do so.
    I look forward to hearing from today's witnesses. I'm glad to see 
that Mr. David Muhlhausen of the Heritage Foundation could be with us 
again today. Mr. Muhlhausen, who is no stranger to this Committee, has 
recently published a paper on the very topic that we are discussing 
today. It is also good to have Sheriff Tom Ferrell from Adams County, 
Mississippi, here with us. Sheriff Ferrell is the incoming President of 
the National Sheriffs' Association (NSA) and would like to testify 
about the NSA's concerns over the transferring of the Office of 
Domestic Preparedness from the Department of Justice to the Federal 
Emergency Management Agency.
    I have heard similar concerns from other law enforcement 
organizations and also from law enforcement officers back in Iowa. 
Because of the many objections that I have heard regarding this 
transfer, I am eager to hear Sheriff Ferrell's testimony, as well as 
the testimony from the other fine witnesses.
    Chairman Biden, thank you again for holding this hearing.

    [The prepared statement of Senator Kohl follows:]

                     Statement of Senator Herb Kohl

    Mr. Chairman, thank you for calling this hearing today on the COPS 
program. Since 1994, COPS has become an indispensable part of our 
ongoing fight against crime. When we ask law enforcement officers in 
Wisconsin how we can help them do their jobs and protect our 
communities, they consistently cite the COPS program as the most 
beneficial use of federal money. We have received countless requests 
for community police--from small towns with only two or three officers 
to the largest cities in Wisconsin. Police departments and sheriffs' 
offices throughout the state have benefitted from the 1,340 new 
officers in Wisconsin since the program began.
    Some choose to spend their time debating whether the COPS program 
is responsible for the consistently decreasing crime rate. A recent 
study found that a one dollar increase in hiring grants per resident 
has led to a corresponding decline of 5.26 violent crimes and 21.63 
property crimes per 100,000 people. The few opponents of the program 
quarrel with those statistics. While that is an interesting academic 
discussion, we know what the police and sheriffs in our communities 
tell us--that COPS has made a tremendous difference.
    Unfortunately, trouble lies ahead. The program's authorization has 
ended an the Administration has chosen to eviscerate the program. 
Frankly, we just do not understand this decision. After all, there is 
widespread support for the program. Last month, the Attorney General of 
the United States testified before the Appropriations Committee that 
the COPS program is one of the most successful government programs he 
could recall. The program works. The police organizations want it. Our 
communities need it. It is irresponsible to end it.
    Mr. Chairman, we need to think about what comes next. Of course we 
should reauthorize the program for 50,000 new officers as you have 
proposed and a majority of the Senate has supported. And we should 
insist that funds directed to local law enforcement be targeted to hire 
new community police officers and school resource officers and to 
improve technology.
    We must realize that the COPS program is more important today than 
ever before. To maintain our successes in the fight against crime in a 
law enforcement environment teeming with momentous new challengers, the 
COPS program is essential. Federal officers are more focused on 
terrorist threats, leaving local law enforcement with enhanced 
responsibilities. More will be expected of state and local law 
enforcement, and we must continue to help them.
    The safety of our communities depends upon it. Thank you.

    Chairman Biden. Gentlemen, let me begin by getting at, if I 
may, from the perspective of all three of you, and starting 
with you, Bill, what do you think the $3.5 billion that the 
administration is proposing be under the jurisdiction of FEMA 
for homeland--what do you think that means?
    I mean, as I read the initiative, it says that none of the 
funds can be used for personnel expenses, including new hiring 
or overtime costs. It says that none of the funds can be 
allocated directly to any local jurisdiction, and it says that 
the funds require a 25-percent match contribution by the 
States, whereas the $635 million that all of you have spoken to 
that exists under the Justice Department now for the same 
purposes goes to the first responders in the States, 
administered by the Justice Department, without a match.
    I know none of you like this distribution, but try to be as 
frank with me about what you think they think this allocation 
is going to--I mean, how is this going to work, in your mind? 
You have stated your concerns. You must be concerned because of 
how you think it is going to function. Talk to me about that 
piece.
    Mr. Johnson. Yes, sir, and specifically the impact of that 
functioning will be on America's police. I think that it is 
clear that the administration's proposal is not a transfer of 
the COPS program or a COPS-like program to FEMA. It is 
completely doing away with COPS and it is simply transferring 
money at the same time to FEMA.
    As other speakers and as you have indicated, clearly FEMA 
has an important job to do, and first responders in the medical 
services and fire services have a very important job to do. But 
as one of the other speakers also indicated, when you call 911 
you don't hope for a clean-up. You are not looking for someone 
to clean up and decontaminate something next week. You want 
someone who is willing to come in and do whatever is necessary, 
even at the cost of their own life sometimes, to solve the 
problem that is here right now in an emergency.
    In addressing it more specifically, I think as you 
indicated, the proposals that are out there are not long on 
specifics, although they may be in terms of what the money 
cannot be used for. Things such as preparedness or making plans 
or generically improving technology or communications sound 
good, but in reality there is nothing that is going to force 
FEMA to either put new police on the street or to maintain the 
police that are already out there who have been hired and 
funded with the assistance of the Federal Government.
    Chairman Biden. Let me talk about for a moment--and I want 
you all to respond to all of this, if you can, so we can have 
more of a conversation here. Under last year's budget, within 
the Justice Department, there was $651,494,000 made available 
through the Justice Department for what they used to categorize 
as counter-terrorism programs.
    Let me read what some of those are: the Nunn-Lugar response 
program, integrated training and technical assistance, Fort 
McClellan; domestic preparedness consortium, equipment 
acquisition grant program; situational exercises; research and 
development; bomb technology equipment program; virtual medical 
campus; Dartmouth Institute; Oklahoma City National Memorial 
Institute; NYU Center for Catastrophic Preparedness and 
Response; pre-positioned equipment.
    Now, that was issued through the Justice Department. Some 
of that went directly to police forces. Some of that training 
went directly to police forces and others went to firefighters. 
They are the kinds of things, when we talk about preparedness, 
to meet a terrorist act.
    Let me back up. When Senator Nunn was here, he and I 
introduced legislation dealing with the circumstances, if any, 
under which posse comitatus could be waived and you could call 
in the United States Army.
    For those who are listening, posse comitatus is a very good 
principle in law. It says that there is no national police 
force, so you can't have the Army or the Navy or the Marines 
making arrests. That is the job of law enforcement.
    We realized as we started to focus on this six years ago 
that you had problems like the prospect of a nuclear weapon 
being pre-positioned for detonation, the problem of a 
biological or chemical weapon being employed. Right now, the 
only people in the world who are really equipped, and not even 
fully equipped to deal with this are the military. You all 
don't have the training, the sheriffs or the police, to do it.
    So we were trying to figure out, while we train first 
responders, including law enforcement, to identify the problem 
and to deal with it, there may be circumstances in which we may 
have to bring in the nuclear boys from the United States 
military to deactivate a bomb that is sitting in a tunnel, you 
know, like the science fiction movies you see where it is 
counting down.
    We worked out a deal where they could only use force in 
self-defense and they would do it in conjunction with the 
police going in, but they could come in; they could be called 
in. Now, that is different than what is obviously a fire. You 
have airplanes hitting buildings, called the World Trade 
Towers, and then coming down. Obviously, you have to call the 
fire service, and the police responded as well at the same 
time.
    But I assume you guys are talking about in terms of your 
responsibilities those many terrorist possibilities that 
literally have nothing to do with a fire being started or an 
accident occurring, but people who are armed, people who have 
weapons, people who have bombs strapped to them, people who 
have sarin gas in their backpacks, et cetera.
    So has anyone explained to you from the administration how 
you all would be in on this deal for the $3.5 billion? Have 
they indicated to you, Sheriff--have they said anything to you? 
Have you had any briefings?
    Sheriff Ferrell. I spoke personally with Governor Ridge 
when he came to address our conference a few ago, and of course 
the topic continued on into the conference room. It was 
explained to me by Governor Ridge that it was the position of 
the administration that in their effort to try to draw us all 
under FEMA, it was their plan to have an existing program, if 
you will, that includes all of the services, not only the 
responders, but law enforcement, to have it all in one 
location, under one house or under one roof, so it could be 
administered by someone in charge of the consequence 
management, I call it.
    You alluded there a second ago about guns and bombs and 
what not. We in law enforcement don't feel it is correct 
procedure to put our friends in the other response agencies in 
harm's way. We respond to problems with guns and bombs and 
dangers and life-threatening situations all over the United 
States in the police and sheriff's business probably 100,000 
times a day. We don't want to see our brothers in the fire 
business or in EMS be subjected--that is not their training and 
that is not what they were designed to do.
    You mentioned FEMA. FEMA does not have a traditional law 
enforcement role. Not only do they not have a law enforcement 
role, but there has been no effort from FEMA extended to law 
enforcement to this point in time.
    Chairman Biden. I got a chance to speak to your guys and 
women as well, and they seemed pretty adamant about this. What 
kind of responses have you gotten from the administration to 
your--``pleas'' may be the wrong word--your concerns? I mean, 
what do they tell you?
    Sheriff Ferrell. Again, speaking from a personal benefit of 
meeting face to face with Governor Ridge, we have not had much 
communication with the administration on that level. The only 
thing we have heard is the plan that has come forward, the same 
thing that you have seen in the form of the budget, with no 
contact from FEMA and very little contact from the 
administration.
    Now, the administration has attempted in our last 
conference a few weeks ago to break the ice and to at least 
make contact, to start a dialogue, and that was the statement 
made by the governor at our meeting then to try to have a 
dialogue so we can start somewhere with law enforcement and the 
administration. That has been our last contact.
    Chairman Biden. I have been trying to figure out how to 
avoid a fight on this. I am not looking for a fight. What I am 
looking for is somebody from the administration to come up here 
and tell us--Governor Ridge, preferably, because he is the guy 
making the decision, apparently; he is the guy under whose 
umbrella this is going to fall--answer some specific questions 
for us, because maybe we can work this out.
    All of us want to make sure that firefighters get 
additional help and get additional training. But even with the 
limitation on personnel, I have met with the firefighters and 
the firefighters are upset about this, not about the shift to 
FEMA, but what this means. What they say is, hey, look, because 
of the additional calls on our time as it relates to terrorism, 
we need more personnel, we need more people, we need more 
firefighters to help us in this effort.
    It takes me back to you, Bill, and then I want to get to 
you, David, about this devolution issue. Since you represent so 
many big-city police forces, what has been your experience when 
money and plans are deposited at the State level with the 
governor? What has been your experience as to whether or not 
your needs, representing an awful lot of major cities--you are 
in L.A., right?
    Mr. Johnson. Yes.
    Chairman Biden. Are you in New York as well?
    Mr. Johnson. All of New York City, Los Angeles, Chicago, 
Miami-Dade County, Florida, Boston, Providence.
    Chairman Biden. So you have the biggest outfits in the 
country?
    Mr. Johnson. Yes.
    Chairman Biden. What has been your experience when whatever 
the program is that is designed to help law enforcement starts 
its distribution in the State capital?
    Mr. Johnson. Clearly that the funds are diluted from the 
top down. Number one, just by the nature of government--and 
nothing against the governors or the State officials, but of 
necessity not as many dollars will reach the local level.
    Number two, the monies that do reach the local level, 
because they are being directed from the state capital, will 
not be as effectively or efficiently applied simply because 
there is a lack of knowledge. In the mining business, you would 
say that the knowledge is at the face, at the coal face where 
the miners are actually working.
    In the police business, it is the actual cop on the street 
or the firefighter riding the back of the truck who knows what 
is needed. Therefore, it is the local officials, it is the 
chiefs, it is the sheriffs, it is the union officials, it is 
the representatives of the actual workers who are doing it and 
the local mayors who know what is going on in the communities 
because that is where they live and that is who they serve.
    Chairman Biden. Sheriff, what a lot of people around the 
country don't fully comprehend is that in some States the most 
powerful law enforcement entity in terms of influence in the 
State are the sheriffs. What has been your experience from that 
position? The Mississippi sheriffs are a pretty powerful 
political force, I mean, in a positive way, being able to make 
their views known.
    If all this money, whether it is through FEMA or whomever, 
goes directly to the governor and then it is decided by the 
State legislature where it goes, how have you usually fared?
    Sheriff Ferrell. I agree with what Bill just mentioned. 
Even from a local level of the sheriff's position, the money is 
diluted. When it reaches the State level, it is almost non-
existent.
    As you well know, or may not know--you mentioned the office 
of sheriff in the United States, and in a lot of places it is 
different. In my area of the country, it is a constitutionally-
elected office, a very powerful office, and he is known as the 
chief law enforcement agent of his county. Because of that 
position, that puts him in direct competition not only 
politically with the State administration, but also 
professionally with, in my part of the country, most State 
police agencies, if they exist, or departments of public safety 
that are the pet children of the governor or the State 
government, and rightfully so. That is his area of 
responsibility. So because of that, when money is funneled down 
through the State level, that is where it goes.
    I can speak for a large range of sheriffs throughout the 
United States, especially your Midwestern sheriffs, your West 
Coast sheriffs, almost all except along the East Coast area, 
and that occurs when the money goes to the government. One of 
the best things that ever occurred to law enforcement was when 
the direction or the funnel of money was arranged like it was 
through DOJ. It came directly to the law enforcement agency. 
That eliminated those problems there.
    Chairman Biden. When we wrote the COPS bill, that is 
exactly why we did it that way.
    Sheriff Ferrell. You had one chart that depicted a reduced 
rate. I could predict that that chart is very low in its 
estimate. It could probably take away as much as 50 to 75 
percent, unless it is mandated by the Congress. Most of those 
monies would not make it to the local level.
    I have to tell you a quick story, and I said I wasn't going 
to say this, but it occurred yesterday in preparation for this 
trip.
    Chairman Biden. That is all right. Take your time.
    Sheriff Ferrell. I had to make a quick trip to the rural 
county next door to me, one of the most rural counties in the 
State of Mississippi. The sheriff has two officers and himself 
to patrol the entire county. He has some cities that don't have 
a police department.
    We had a quick lunch and I told him I was coming to 
Washington, and he said, well, I want you to tell those people 
in Washington one thing for me, Sheriff, that if they do away 
with the LLEBG or they do away with the Byrne formula or if 
they do away with any of the grants--one of those two officers 
in his county is a COPS-funded position, and that is the 
epitome of the entire program for rural America, when you see a 
sheriff that is pleading to not cut off his funding, or his law 
enforcement capability is ended. That just occurred yesterday, 
so I told him I would tell that story when I got to Washington.
    Chairman Biden. By the way, that has been my experience. 
One of the criticisms of the Heritage Foundation is that it 
gets spread out all over, but I think it is one of its greatest 
strengths, quite frankly.
    As you and I talked about before, a kid growing up in New 
Orleans is less likely to be introduced to methamphetamine 
today than a kid in that rural county in Mississippi you just 
talked about with a sheriff and a deputy or two deputies.
    Sheriff Ferrell. Yes, sir.
    Chairman Biden. The drug problem has moved to rural America 
because there is the least resistance there, because you guys 
in the big cities have done an increasingly better job. It is 
just like squeezing a balloon, a water balloon; you know, it 
goes out in other directions.
    I would like to talk about devolution for a second. I think 
I understand the distinction here, David. The Heritage 
Foundation has been very straightforward and has been one of 
the leaders in trying to get us to change the paradigm in this 
city, and has been a very strong and articulate proponent of 
the devolution of government.
    I know you know all this, but that is moving power and 
resources and responsibility--not always resources--moving 
responsibility to where it belongs. One of the strongest 
objections that I have had from the outset, and it is 
intellectually justifiable, is that the reason a lot of folks 
originally didn't vote for the COPS program, a lot of my 
Republicans friends didn't vote it, is not because they weren't 
concerned about fighting crime, but they thought that is a 
quintessentially local responsibility.
    Therefore, for a lot of reasons, including civil liberties 
and civil rights, but also for just pure structural reasons, 
the Federal Government shouldn't be helping buy a badge at the 
local level, even though the Federal Government doesn't control 
that, other than saying it must be community policing.
    Now, the Heritage Foundation and other think tanks with 
some very serious minds bouncing around in there have argued 
that in order to make Government more efficient and the way it 
is supposed to function, there should be fewer powers granted 
to and fewer responsibilities, in effect, taken by the Federal 
Government. Whoever is best suited to exercise the 
responsibility should exercise it, including paying for it.
    I detected, and maybe I am making more out of this than I 
should, that that rationale does not apply to the $3.5 billion 
related to homeland defense, not related to who administers it. 
We agree on FEMA versus Justice, but you would be willing to 
let Justice administer the bulk of that.
    What is the rationale of why that is not the same as the 
COPS program as it relates to devolution?
    Mr. Muhlhausen. I believe it boils down to the Federal 
Government has a responsibility to help localities face certain 
dangers, like weapons of mass destruction, certain things that 
are so dangerous to our way of life that the Federal Government 
can provide a role and help with providing technology, 
training, and those sorts of things.
    Where the difference comes in with, say, funding officer 
salaries and paying for the traditional roles of local 
governments--I take the view of James Madison in Federalist No. 
54 that protecting life, liberty and property are suited best 
to local governments.
    Chairman Biden. Yes.
    Mr. Muhlhausen. I believe that we are increasingly moving 
toward more Federal role, more Federal interference. I am 
afraid that one day, for instance, if your bill, S. 924, 
becomes law, it is going to do away with the responsibility of 
agencies of permanently funding their own officers, and it 
wouldn't stop.
    Chairman Biden. That is a legitimate concern.
    Mr. Muhlhausen. I am worried that one day every police 
officer in our country is going to be a Federal employee, and I 
think we need to be concerned about that.
    Chairman Biden. Well, at a minimum, I assume you are 
worried that if they are not a Federal employee, they are being 
paid for by Federal dollars.
    Mr. Muhlhausen. Yes.
    Chairman Biden. But the ultimate worry would be that they 
become a Federal employee.
    Mr. Muhlhausen. Yes.
    Chairman Biden. Again, we have a philosophical 
disagreement, but I respect that view. I assume, then, that 
because dealing with terrorism, particularly foreign-based 
terrorist activity, is quintessentially a Federal 
responsibility--or to put it another way, no matter how good 
the State of Mississippi was, no matter how wonderful the State 
of Delaware was, no matter how competent the State of 
California is, it does not have the capability to, in fact, 
deal with terrorism by infiltrating organizations over in 
Afghanistan, Paris, Germany, or whatever. It doesn't have that 
reach, correct?
    Mr. Muhlhausen. I believe we are in common agreement on 
that.
    Chairman Biden. Okay. I just wanted to make sure I 
understood it. I am not being critical of it. I disagree with 
it. Just so you know--and someday maybe we can have a cup of 
coffee--the reason why I think that local law enforcement, in 
fact, warrants the kind of Federal help I have been proposing 
and continue to propose is that no matter how well the State of 
Mississippi does its job, it can't deal with the drug problem. 
It can't secure the borders of the United States. It cannot set 
national drug policy. It cannot deal with immigration, 
migration and mitigation. About 60 percent of all the crime is 
directly related to that.
    I am not asking for a debate now. I just want you to 
understand where I--I respect the view you have articulated. 
This is getting a little esoteric, isn't it, guys? And I know a 
guy from Brown and Georgetown has no trouble following all 
this.
    Mr. Johnson. I am liking this, Senator. I am liking this.
    Chairman Biden. The bottom line of all this is that I am 
worried about at this point, Sheriff--and I also say to NAPO 
and all the police organizations, the very practical problem 
that much of what you are going to be required to do in every 
sheriff's department, every law enforcement officer in the 
country, is aggravated by the increasingly looming threat of 
international terrorist activity, let alone domestic 
terrorists, as in Oklahoma City.
    I don't want you to become like school teachers. We expect 
our school teachers to teach our kids to read, write, add, 
subtract, be good citizens, understand what home life is about, 
pray, and a whole range of other things when they come from 
families that have that primary responsibility and they don't 
exercise that responsibility.
    I am a little worried here that while we are trying to 
train a sheriff, Sheriff, in your county on how to recognize 
and distinguish between cyanide put in a bus terminal or on a 
bus and sarin gas, or we are trying to teach you to be able to 
distinguish between what constitutes a smallpox attack versus a 
chicken pox outbreak, or while we are trying to teach you as 
first responders to understand and be able to determine the 
nature of the problem you are responding to, you have got to be 
trained to do that.
    It is going to take a lot of time and a lot of money and a 
lot of effort, and we should be doing it, but who is going to 
be stopping the cat burglar? Who is going to be the guy and the 
woman out there dealing with the chop shops that are taking the 
stuff across Mississippi, into New Orleans, to have that new 
Mustang chopped up in 17 different pieces and made five times 
as valuable?
    That is the concern I have, even if you were able to, 
through the $3.5 billion administered through homeland 
security, get the fair share and even if it was going to get 
down to your level.
    Do you guys talk about it that way? I am not, again, trying 
to put words in your mouth, but I sit here and I think how do 
you do all that at once.
    Mr. Johnson. Clearly, I think if we can imagine for a 
minute that the attacks on September 11 never happened, and it 
didn't happen and we were still sitting here today talking 
about the administration's proposed 2003 budget, we would still 
say it is a bad idea. With all due respect to the 
administration, it is a bad idea because we still need cops, 
both cops in terms of the individual man and woman on the 
street, and COPS, in the capital letters, the Department of 
Justice program that funds it. We would still need it.
    The fact is September 11 did happen and we are at risk of 
something similar happening again, because America, like the 
cop on the street, is a target for bad guys around the world. 
America as a nation is hated for the same reason individual 
cops are hated in our country, because we stand up for what is 
right. We have got courage and we have helped out other peoples 
and other nations throughout history. Even when we were a new 
Nation, we did it and we were hated for it. So that threat is 
not going to go away.
    We still need police, and we need the resources that only 
the Federal Government can provide for our entire Nation. The 
knowledge of how to apply the resources is at the local level, 
and the COPS program under the Department of Justice has 
already proven itself to be a great partnership for America and 
America's police.
    Sheriff Ferrell. Crisis management versus consequence 
management. That is as simple as we can get. Even when there is 
a crisis that calls for assistance that you mentioned, Senator, 
continues on at a level that still affects us in our mission in 
a tremendous fashion. But it is going to be hard to convince 
those that are trying to promote this program through OMB that 
this is not the direction to go. It is like I like to say in a 
lot of my presentations, if it ain't broke, don't try to fix 
it. In this case, it ain't broke.
    Chairman Biden. Well, let me conclude. I am going to, with 
your permission, submit only a couple of questions in writing 
rather than keep you here.
    As will come as no surprise to Bill, and maybe not you, 
Sheriff, or you, David--I don't know--I have a really close 
relationship with firefighters. My State is one of those 
States, Sheriff--and it is going to sound strange coming from a 
Senator looking at Mississippi--we are one of the most rural 
States in America. Our largest city is 83,000 people. The next 
largest city is about 31,000 people, and then it falls off the 
cliff after that.
    My State is one of those few States in America where we 
only have one paid fire department in the State. By the way, we 
are not the smallest State. We are the fifth smallest in 
population. We have a little over 800,000 people and one paid 
fire service. We have a totally professional fire service, all-
volunteer, except for the city of Wilmington and parts of 
Dover.
    In talking to the firefighters, they are wondering how this 
is all going to work, too, because if it all goes to the State 
level, in a State like mine how does it get where? Who gets 
trained?
    In those rural communities which have fire departments that 
are totally professional, how do they get trained in this 
stuff, unless you conclude that terrorist acts aren't going to 
happen in rural communities, which I think is unlikely?
    So I will make a prediction to you all that the one thing 
the entire panel agreed on is that FEMA shouldn't run the whole 
show here, and I predict to you that FEMA will not turn the 
whole show before this is over. It is my hope--and if anyone 
from the administration is here, I issue an invitation to the 
administration to come and explain to us and try to work this 
out with us, because no one that I know is trying to say we 
should not spend more money to deal with training police 
officers, ambulance drivers, EMS people generally, 
firefighters, et cetera, in the art of dealing with terrorist 
threats that they have yet to become accustomed to.
    So I want to make it clear that the measure for me is if 
the net Federal commitment is increased, and by whatever name, 
whatever program we want to call it, we allow localities to be 
able to directly make a plea for their needs, including 
personnel, then they count me in on the deal. I am ready to 
figure out how to deal with it. But absent that, I am not.
    So, Sheriff, you probably came the longest distance, so I 
appreciate your willingness to be here.
    Sheriff Ferrell. Thank you.
    Chairman Biden. And I appreciate, by the way, the sheriffs 
organization supporting my other legislation that we have to 
extend the COPS program. We didn't talk about that today and 
that wasn't the purpose today, but I can't tell you how much I 
appreciate it.
    David, you are always welcome here. I mean it sincerely. It 
is presumptuous of me to say you are bright as heck. You make 
straightforward arguments, and I sincerely say you add to the 
debate and the discussion here. And your view is shared by many 
of my colleagues here, many of my colleagues. With that, I 
would like again to thank you all.
    Tell old Scotto I don't have cuffs on my pants, okay? That 
is an inside joke.
    Mr. Johnson. I understand, and I will give him the message.
    Chairman Biden. The hearing is adjourned.
    [Whereupon, at 4:50 p.m., the subcommittee was adjourned.]
    [Submissions for the record follow.]
    [Additional material is being retained in the committee 
files.]
[GRAPHIC] [TIFF OMITTED] 85884A.026

[GRAPHIC] [TIFF OMITTED] 85884A.027

[GRAPHIC] [TIFF OMITTED] 85884A.028

[GRAPHIC] [TIFF OMITTED] 85884A.029

[GRAPHIC] [TIFF OMITTED] 85884A.030

[GRAPHIC] [TIFF OMITTED] 85884A.031

[GRAPHIC] [TIFF OMITTED] 85884A.001

[GRAPHIC] [TIFF OMITTED] 85884A.002

[GRAPHIC] [TIFF OMITTED] 85884A.003

[GRAPHIC] [TIFF OMITTED] 85884A.004

[GRAPHIC] [TIFF OMITTED] 85884A.005

[GRAPHIC] [TIFF OMITTED] 85884A.006

[GRAPHIC] [TIFF OMITTED] 85884A.007

[GRAPHIC] [TIFF OMITTED] 85884A.008

[GRAPHIC] [TIFF OMITTED] 85884A.009

[GRAPHIC] [TIFF OMITTED] 85884A.010

[GRAPHIC] [TIFF OMITTED] 85884A.011

[GRAPHIC] [TIFF OMITTED] 85884A.012

[GRAPHIC] [TIFF OMITTED] 85884A.013

[GRAPHIC] [TIFF OMITTED] 85884A.014

[GRAPHIC] [TIFF OMITTED] 85884A.015

[GRAPHIC] [TIFF OMITTED] 85884A.016

[GRAPHIC] [TIFF OMITTED] 85884A.017

[GRAPHIC] [TIFF OMITTED] 85884A.018

[GRAPHIC] [TIFF OMITTED] 85884A.020

[GRAPHIC] [TIFF OMITTED] 85884A.021

[GRAPHIC] [TIFF OMITTED] 85884A.022

[GRAPHIC] [TIFF OMITTED] 85884A.023

[GRAPHIC] [TIFF OMITTED] 85884A.024

[GRAPHIC] [TIFF OMITTED] 85884A.025


</pre></body></html>
